APPENDIX

1a

APPENDIX A
State of New York
Supreme Court, Appellate Division
Third Judicial Department
Decided and Entered: July 2, 2020

529350

ROMAN CATHOLIC DIOCESE
OF ALBANY et al.,
Appellants,
v
MARIA T. VULLO, as
Superintendent of Financial
Services, et al.,
Respondents, et al.,
Defendants.

OPINION
AND ORDER

(And Another Related Action.)
Calendar Date: May 18, 2020
Before: Garry, P.J., Clark, Aarons, Pritzker and
Colangelo, JJ.
Tobin and Dempf, LLP, Albany (Michael L. Costello
of counsel), for appellants.
Letitia James, Attorney General, Albany (Laura
Etlinger of counsel), for respondents.

2a
Edward T. Mechmann, New York City, for New
York State Catholic Conference, amicus curiae.
Colangelo, J.
Appeal from an order of the Supreme Court
(McNally Jr., J.), entered January 10, 2019 in Albany
County, which, among other things, granted a motion
by defendants Superintendent of Financial Services
and Department of Financial Services for summary
judgment dismissing the complaints against them.
Plaintiffs—several religious organizations, a single
individual and a construction company—collectively
challenge a regulation of defendant Superintendent of
Financial Services requiring that health insurance
policies in New York provide coverage for medically
necessary abortion services.
The regulation
specifically exempts “religious employers,” a term
defined in the regulation, from the coverage
requirement (see 11 NYCRR 52.1[p][1]; 52.2[y]).
Plaintiffs challenge the regulation under the free
exercise of religion, free speech, expression and
association, and equal protection provisions of the US
and NY Constitutions, certain statutory provisions
and the separation of powers doctrine.
The Superintendent is empowered to promulgate
regulations establishing “minimum standards” for,
among other things, the “content and sale of accident
and health insurance policies” offered in this state
(Insurance Law § 3217[a]). The Superintendent is
authorized to, among other things, “prescribe” and
“amend, in writing, rules and regulations and issue
orders and guidance involving financial products and
services, not inconsistent with,” among other statutes,

3a
“the [I]nsurance [L]aw” (Financial Services Law
§ 302[a]).1
In 2013, in response to regulations
implementing the Federal Affordable Care Act (see
The Patient Protection and Affordable Care Act, Pub
L 111-148, 124 Stat 119 [111th Cong, 2d Sess, Mar. 23
2010]) that required each state to identify a “basebenchmark” plan to guide required coverage of
essential health benefits (45 CFR 156.100[a], [b]; see
45 CFR 156.110[a]), defendant Department of
Financial Services (hereinafter DFS) developed a
standard health insurance policy template, referred to
as the “Model Language” (see Department of Financial
Services, Accident and Health Product Filings,
https://www.dfs.ny.gov/apps_and_licensing/health_in
surers/model_language). An insurance policy issued
in accordance with the Model Language covered
medically necessary abortions (see Department of
Financial Services, Accident and Health Product
Filings, Outpatient and Professional Services, at 6–7,
https://www.dfs.ny.gov/system/files/documents/2020/0
4/outpatient-and-professional-services.doc
[last
update Apr. 13, 2020]).
In April 2016, plaintiffs commenced the first of two
actions against the Superintendent and DFS
(hereinafter collectively referred to as defendants), as
well as several of their health insurance companies,2
seeking to invalidate certain provisions of the Model
Language pertaining to medically necessary
1

Insurance Law § 3221 sets forth the standard provisions
that must be included in health insurance policies providing
major medical or comprehensive-type coverage to be delivered or
issued in New York.
2

The insurance companies did not appear in the action.

4a
abortions. In this action for declaratory and injunctive
relief, plaintiffs asserted that, based upon their
religious beliefs, they hold “moral, ethical, conscience
and religious” opposition to “the inclusion of coverage
and funding of all abortions.” Defendants moved to
dismiss the complaint for failure to state a cause of
action. Plaintiffs opposed, submitted an amended
complaint3 and cross-moved for injunctive relief (see
CPLR 6311). In 2017, while the motions were
pending, the Superintendent amended 11 NYCRR
part 52 to make explicit that health insurance
companies must provide coverage for “medically
necessary abortions,” with an exemption for insurance
policies offered by “[r]eligious employers” (11 NYCRR
52.1[p]; see 11 NYCRR 52.2[y]).4 Thereafter, plaintiffs
commenced a second action, challenging the 2017
regulation. The complaint in the second action
mirrored the amended complaint in the first action,
except that it contained the additional claim that the
regulation violated the separation of powers doctrine
and rule-making provisions of the NY Constitution
and did not assert the claim pursuant to the Religious
Freedom Restoration Act. Supreme Court joined the
two actions.5

3

The amended complaint asserted a claim under the
Religious Freedom Restoration Act of 1993 (see 42 USC § 2000bb
et seq.).
4

Plaintiffs do not contend on appeal that they qualify as
“religious employers” for purposes of the exemption.
5

Although Supreme Court maintained that these actions
were consolidated, the court continued to use both captions and
index numbers in the order on appeal (see e.g. Matter of

5a
After the two actions were joined, defendants moved
to dismiss the complaints and plaintiffs cross-moved
for an order granting summary judgment and a
preliminary injunction.
Supreme Court granted
defendants’ motion dismissing the complaints, finding
that plaintiffs failed to meaningfully distinguish their
federal and state religious, speech and association
claims from those presented and rejected by the Court
of Appeals in Catholic Charities of Diocese of Albany v
Serio (7 NY3d 510 [2006], cert denied 552 US 816
[2007]) and, therefore, the principle of stare decisis
“require[ed] dismissal of plaintiffs[’] constitutional
claims.”
The court further concluded that the
amended regulation did not violate the separation of
powers doctrine and that it was “not an improper
delegation of legislative authority to [DFS].” Plaintiffs
appeal.
We affirm. As an initial matter, plaintiffs contend
that Catholic Charities of Diocese of Albany should not
apply here because the nature of the conduct governed
by the regulation at issue—medically necessary
abortion procedures—is more morally and religiously
offensive to them than the conduct upheld by the
Court of Appeals in Catholic Charities of Diocese of
Albany.
In defense of the regulation at issue,
defendants argue that the constitutional issues raised
by plaintiffs were squarely addressed and rejected by
the Court in Catholic Charities of Diocese of Albany,
and that such decision is controlling and binding
precedent that preempts de novo review by this Court.
In essence, plaintiffs’ position boils down to the
Consolidated Edison Co. of N.Y., Inc. v New York State Bd. of Real
Prop. Servs., 176 AD3d 1433, 1436–1437 [2019]).

6a
argument that, based upon their religious beliefs,
there is a fundamental difference between prescribing
contraceptives and performing an abortion procedure.
The crux of defendants’ argument is that there is no
substantive difference between an abortion and any
other medically necessary procedure.
Neither
argument proves particularly satisfying: plaintiffs’
position because when viewed through the
dispassionate prism of judicial analysis, it amounts to
a distinction without a legal difference, in addition to
the fact that it would require this Court to enter the
thicket of making a religious value judgment; and
defendants’ position because it ignores the twin
realities that the contrary view is held with deep
religious fervency and that this particular “medically
necessary” procedure has been among the most
divisive issues in our politics for several decades,
despite the effort of the Supreme Court of the United
States to put it to rest over 47 years ago (see Roe v
Wade, 410 US 113 [1973]). The ultimate resolution of
this issue may well lie in another arena, outside of our
judicial purview.
Our recourse as judges, when confronted with this
or any issue of such constitutional dimension,
controversial or otherwise, is more straightforward—
to apply neutral principles to the issue at hand and,
through the rigors of judicial reasoning, arrive at a
resolution of the specific controversy before us. Chief
among such neutral principles, particularly for an
intermediate appellate court, is stare decisis. That
doctrine, when applied to the precise issues presented
by this appeal, proves decisive here in determining the
constitutional claims advanced by plaintiffs that were

7a
addressed and rejected by the Court of Appeals in
Catholic Charities of Diocese of Albany.
At issue in Catholic Charities of Diocese of Albany
was the validity of a provision of the Women’s Health
and Wellness Act (see L 2002, ch 554 [hereinafter
WHWA]) that requires health insurance policies that
provide coverage for prescription drugs to include
coverage for prescription contraceptives (see Catholic
Charities of Diocese of Albany v Serio, 7 NY3d at 518).
The WHWA also provided an exemption from coverage
for
“religious
employers”
(Insurance
Law
§ 3221[l][16][E]), which exemption contains the
identical criteria as the exemption applicable here (see
11 NYCRR 52.2[y]). In that action, the Court of
Appeals rejected each of the plaintiffs’ federal and
state constitutional challenges to the statute. As the
constitutional arguments raised by plaintiffs here are
the same as those raised and rejected in Catholic
Charities of Diocese of Albany, Supreme Court
properly concluded that they must meet the same fate
by operation of the doctrine of stare decisis. “Stare
decisis is the doctrine which holds that common-law
decisions should stand as precedents for guidance in
cases arising in the future and that a rule of law once
decided by a court will generally be followed in
subsequent cases presenting the same legal problem”
(Matter of State Farm Mut. Auto. Ins. Co. v Fitzgerald,
25 NY3d 799, 819 [2015] [internal quotation marks
and citations omitted]).
The overriding reason for such rejection—equally
applicable in the instant case—was that the WHWA
set forth a neutral directive with respect to
prescription medications to be uniformly applied
without regard to religious belief or practice, except for

8a
those who qualified for a narrowly tailored religious
exemption (Catholic Charities of Diocese of Albany v
Serio, 7 NY3d at 522–526). The same analysis applies
to the regulation at issue here—a neutral regulation
that treats, in terms of insurance coverage, medically
necessary abortions the same as any other medically
necessary procedure (see 11 NYCRR 52.1[p][1]). The
factual differences in these cases are immaterial to the
relevant legal analyses that are identical in both cases.
In addition, the fact that a regulation is at issue here
as opposed to a statute enacted by the Legislature in
Catholic Charities of Diocese of Albany is of no
moment, as it is well settled that a properly
promulgated regulation is entitled to the same
deference as a legislative act (see Raffellini v State
Farm Mut. Auto Ins. Co., 9 NY3d 196, 201 [2007]). No
compelling reason has been presented to this Court to
depart from that holding.6 Accordingly, Supreme
Court properly dismissed plaintiffs’ constitutional
claims, which were addressed in Catholic Charities of
Diocese of Albany, on the basis of stare decisis.7
The challenged regulation does not violate plaintiffs’
state statutory rights under the Human Rights Law or the
Religious Corporation Law. Although the Court of Appeals in
Catholic Charities of Diocese of Albany did not address these
claims, this Court did in that case and rejected them, and its
reasoning controls here (Catholic Charities of the Diocese of
Albany v Serio, 28 AD3d 115, 136–137 [2006], affd 7 NY3d 510
[2006], cert denied 552 US 816 [2007]).
6

Although the plaintiffs in Catholic Charities of Diocese of
Albany did not assert an equal protection claim, the analysis and
rulings of the Court of Appeals require rejection of that claim
raised by plaintiffs here. The distinction between qualifying
“religious employers” and other religious entities for purposes of
the exemption is not a denominal classification (see 7 NY3d at
7

9a
Plaintiffs’ challenge to the instant regulation on the
ground that, in promulgating it, the Superintendent
exceeded regulatory authority, was also properly
rejected by Supreme Court. Plaintiffs argue that the
regulation at issue, which they characterize as an
“abortion mandate,” violates the separation of powers
and rule-making provisions of NY Constitution, article
III, § 1 and NY Constitution, article IV, § 8. As the
Court of Appeals has recognized, “[s]eparation of
powers challenges often involve the question of
whether a regulatory body has exceeded the scope of
its delegated powers and encroached upon the
legislative domain of policymaking” (Garcia v New
York City Dept. of Health & Mental Hygiene, 31 NY3d
601, 608 [2018]). “The constitutional principle of
separation of powers requires that the Legislature
make the critical policy decisions, while the executive
branch’s responsibility is to implement those policies”
(Matter of Dry Harbor Nursing Home v Zucker, 175
AD3d 770, 772–773 [2019] [internal quotation marks,
brackets and citations omitted]). “As a creature of the
Legislature, an agency is clothed with those powers
expressly conferred by its authorizing statute, as well
those required by necessary implication” (Matter of
Acevedo v New York State Dept. of Motor Vehs., 29
NY3d 202, 221 [2017] [internal quotation marks and
citation omitted]; see Matter of New York State Bd. of
Regents v State Univ. of N.Y., 178 AD3d 11, 19 [2019]).
To this end, “an agency can adopt regulations that go
beyond the text of its enabling legislation, provided
they are not inconsistent with the statutory language
528–529), and the Court of Appeals expressly so stated. The
distinction turns on the basis of a religious organization’s
activities and has a rational basis (see id. at 529).

10a
or its underlying purposes” (Garcia v New York City
Dept. of Health & Mental Hygiene, 31 NY3d at 609
[internal quotation marks, brackets and citation
omitted]). Thus, it is undisputed that the Legislature
may delegate authority to an administrative body to,
by regulation, determine the best methods for
pursuing objectives articulated and outlined by
legislation. However, “[i]f an agency promulgates a
rule beyond the power it was granted by the
[L]egislature, it usurps the legislative role and violates
the doctrine of separation of powers” (Matter of
LeadingAge N.Y., Inc. v Shah, 32 NY3d 249, 260
[2018]).
There is no rigid test to determine whether, in a
particular case, an administrative agency has
exceeded its authority.
Because the boundary
between proper administrative rulemaking and
legislative policymaking is difficult to define, the
Court of Appeals developed a set of factors or, in the
words of that Court, “coalescing circumstances,” to be
used as a guide to determine whether the legislative
branch of government has ceded its fundamental
policy-making responsibility to an administrative
agency (Boreali v Axelrod, 71 NY2d 1, 11 [1987]; see
Garcia v New York City Dept. of Health & Mental
Hygiene, 31 NY3d at 609–610; Reardon v Global Cash
Card, Inc., 179 AD3d 1228, 1230–1231 [2020]; Matter
of LeadingAge N.Y., Inc. v Shah, 153 AD3d 10, 16–18
[2017], affd 32 NY3d 249 [2018]). The Boreali factors
include (1) whether the agency merely “balance[d]
costs and benefits according to preexisting guidelines
[or] instead made value judgements entailing difficult
and complex choices between broad policy goals to
resolve social problems,” (2) whether the agency

11a
“wrote on a clean slate, creating its own
comprehensive set of rules without the benefit of
legislative guidance,” (3) “whether the [L]egislature
has unsuccessfully tried to reach agreement on the
issue, which would indicate that the matter is a policy
consideration for the elected body to resolve” and (4)
“whether the agency used any special expertise or
[technical] competence” in the development of the
challenged regulation (Greater N.Y. Taxi Assn. v New
York City Taxi & Limousine Commn., 25 NY3d 600,
610–612 [2015] [internal quotation marks, brackets
and citations omitted]).
We agree with Supreme Court that an analysis of
the Boreali factors weighs in favor of rejecting
plaintiffs’ challenge that the Superintendent exceeded
regulatory authority in promulgating the regulation at
issue here. The first Boreali factor is met by virtue of
the fact that the instant regulation is based upon
longstanding legislative and regulatory efforts to
standardize and simplify health insurance coverages.
The directive set forth in Insurance Law § 3217(b)(1)
that regulations promulgated pursuant to the statute
ensure “reasonable standardization and simplification
of [health insurance] coverages” undergirds a
longstanding 1972 regulation that prohibits a health
insurance policy from limiting or excluding coverage
based on the “type of illness, accident, treatment or
medical condition,” except in several enumerated
cases not applicable here (11 NYCRR 52.16[c]). It
necessarily follows from this non-exclusion directive—
as well as the regulations issued in accordance with
the Model Language provisions of the Affordable Care
Act pertaining to surgical procedures (see 11 NYCRR
52.6, 52.7)—that any medically necessary surgery

12a
include “medically necessary” abortion procedures, as
set forth in the regulation at issue here (see 11 NYCRR
52.1[p][1]). With regard to the second Boreali factor,
rather than writing on a “clean slate” to create their
“own set of rules without the benefit of legislative
authority,” defendants, by the instant regulation,
made explicit what was implicitly mandated in
Insurance Law § 3217 and the 1972 regulation—that
insurance coverage of specific treatments and
procedures must tend toward being inclusive rather
than exclusive when medical necessity is present (see
11 NYCRR 52.6, 52.7, 52.16; see also Insurance Law
§§ 4900[a]; 4904).
With respect to the third Boreali “circumstance”
relating to putative legislative efforts in an area
embraced by the regulation, the mere fact that several
futile legislative efforts were undertaken to either
include or exclude coverage for medically necessary
abortions does not support a finding of a separation of
powers violation. Aside from the fact that the
Legislature may decline to act for any number of
reasons—including a judgment that further
legislation is unnecessary in light of the current
regulatory framework—here, the proposed bills never
cleared their respective committees, a situation hardly
indicative of the “vigorous debate” referred to in the
third Boreali factor (National Rest. Assn. v New York
City Dept. of Health & Mental Hygiene, 148 AD3d 169,
178 [2017]; see Matter of LeadingAge N.Y., Inc. v Shah,
32 NY3d at 265–266). Moreover, none of the bills
mentioned by plaintiffs was introduced after the 2017
regulation at issue was promulgated (see Rent
Stabilization Assn. of N.Y. City v Higgins, 83 NY2d
156, 170 [1993], cert denied 512 US 1213 [1994]). The

13a
presence of multiple unsuccessful bills on a subject
within an agency’s authority may well reflect a
consensus that the law “already delegates to [the
agency] the authority” to act on the matter (Matter of
NYC C.L.A.S.H., Inc. v New York State Off. of Parks,
Recreation & Historical Preserv., 27 NY3d 174, 184
[2016]; see Matter of National Rest. Assn. v
Commissioner of Labor, 141 AD3d 185, 192 [2016]).
Finally regarding the fourth Boreali factor, we find
that making the judgment to include medically
necessary abortion procedures under the insurance
coverage umbrella by promulgating the instant
regulation was well within the expertise and
competence of the Superintendent.
Indeed, the
Superintendent is charged by statute with the
responsibility for standardizing health insurance
coverages (see Insurance Law § 3217[b][1], [4]).
Thus, the “coalescing circumstances” set forth in
Boreali weigh, on balance, in favor of sustaining the
instant regulation. In short, the instant regulation
makes explicit what is, at the very least, implicit in
more general regulations unquestionably based upon
statutory authority—that “medically necessary”
procedures should be covered without regard to the
underlying reason for them. The regulation at issue
simply makes clear that one type of medically
necessary procedure is within that broad legislative
and regulatory ambit (see Financial Services Law
§§ 202[c]; 302[a]; Insurance Law § 3217[a]). We
therefore agree with Supreme Court’s finding that the
Superintendent had the authority to promulgate the
regulation at issue. As the court correctly found, the
“promulgation of 11 NYCRR 52.1(p) is derived from
the above statutory mandates and thus is not an

14a
improper delegation of legislative authority to DFS.”
To the extent that we have not expressly discussed any
of plaintiffs’ remaining contentions, they have been
considered and found to be without merit.
Garry, P.J., Clark, Aarons and Pritzker, JJ., concur.
ORDERED that the order is affirmed, without costs.

ENTER:
s/ Robert D. Mayberger
Robert D. Mayberger
Clerk of the Court

15a

APPENDIX B
STATE OF NEW YORK
SUPREME COURT
COUNTY OF ALBANY
THE ROMAN CATHOLIC
DIOCESE OF ALBANY, NEW
YORK; THE ROMAN CATHOLIC
DIOCESE OF OGDENSBURG;
TRUSTEES OF THE DIOCESE OF
ALBANY; SISTERHOOD OF ST.
MARY; CATHOLIC CHARITIES,
DIOCESE OF BROOKLYN;
DECISION
CATHOLIC CHARITIES OF THE
AND ORDER
DIOCESE OF ALBANY;
Index No.
CATHOLIC CHARITIES OF THE
7536-17
DIOCESE OF OGDENSBURG; ST.
GREGORY THE GREAT
CATHOLIC CHURCH SOCIETY
OF AMHERST, N.Y.; FIRST
BIBLE BAPTIST CHURCH; OUR
SAVIOR’S LUTHERAN CHURCH,
ALBANY, N.Y.; TERESIAN
HOUSE NURSING HOME
COMPANY, INC.; RENEE
RECEIVED
MORGIEWICZ; TERESIAN
2019 JAN 10
HOUSE HOUSING
AM 10:58
CORPORATION; DEPAUL
ALBANY
HOUSING MANAGEMENT
COUNTY
CORPORATION; AND MURNANE
CLERK
BUILDING CONTRACTORS, INC.;
Plaintiffs,

16a
-againstMARIA T. VULLO,
SUPERINTENDENT, NEW YORK
STATE DEPARTMENT OF
FINANCIAL SERVICES; AND
NEW YORK STATE
DEPARTMENT OF FINANCIAL
SERVICES,
Defendants.
APPEARANCES:
Tobin and Dempf, LLP
Attorneys for Plaintiffs
(Michael L. Costello,
Esq., of Counsel)
Office and Post Office
Address
515 Broadway, 4th Floor
Albany, New York 12207

Hon. Barbara D.
Underwood
Attorney General for the
State of New York
Attorneys for
Defendants
(Adrienne Kerwin, Esq.,
of Counsel) ‘
The Capitol
Albany, New York 12224

MCNALLY, J.
Pending before the Court is a consolidated matter
whereby plaintiffs, employers affiliated with the
Catholic Church or similar religious denominations,
are challenging a regulation adopted by New York
State Department of Financial Services (“NYSDFS”).
The regulation at issue involves insurance coverage
which plaintiffs collectively argue contains an
“undisclosed” requirement to provide abortion services
thereby imposing a substantial burden on their core

17a
religious beliefs. Both matters (Action No. 1 - Index
No. 2070-16 and Action No. 2 - Index No. 7536-17)
(hereinafter “Action 1” and “Action 2”) have dispositive
motions pending.1 Plaintiffs oppose dismissal of their
actions as sought by defendants. The Court has heard
oral argument and has accepted supplemental
submissions by the parties.
Plaintiffs’ consolidated action contains a number of
challenges, under the New York State and Federal
Constitutions, involving what plaintiffs term an
“abortion mandate” by New York State. Plaintiffs
assert the “abortion mandate” forces church
institutions, employers, and individuals, to provide
health insurance to their employees which cover
abortion and abortion related services. Plaintiffs state
the mandate places them at the center of the following
moral dilemma: on the one hand abortion is in direct
conflict with the teachings of their respective faiths;
while on the other hand the parties believe they have
a moral duty to consider the well-being of their
employees which necessarily includes providing just
wages and benefits such as health insurance.
Plaintiffs argue defendants have surreptitiously
mandated coverage for abortion under the service
category of “medically necessary” surgery. This was
not disclosed to plaintiffs, who now claim they have
unwittingly providing for the funding of objectionable
coverage by the payment of premiums and co-pays.

1

The causes of action in the Amended Verified Complaint
in Action 1 and Verified Complaint in Action 2 are nearly
identical. The Verified Complaint in Action 2 contains a
separation of powers argument (Sixth Cause of Action) not
contained in the Amended Verified Complaint in Action 1.

18a
Pursuant to the statutory and regulatory
framework found within New York State’s Insurance
Law, abortion and abortion related services must be
covered. Under the Insurance Law the NYSDFS’s
Superintendent is authorized to promulgate
regulations “necessary or desirable to establish
minimum standards . . . for the form, content, and
sale” of health insurance polices (Insurance Law
§ 3217). Pursuant to New York Insurance Law § 3221,
health insurance policies providing major medical or
comprehensive-type coverage to be delivered or issued
in New York State are regulated as to form and
content by the NYSDFS. Health insurance providers
are regulated, pursuant to Insurance Law § 4303,
which dictates policy coverage, language, and benefits.
Plaintiffs “abortion mandate” moniker is derived, in
part, from the adoption of an amendment to the
Insurance Department’s regulations which states the
following:
(1) Subject to certain limited exceptions,
Insurance Law section 3217 and regulations
promulgated thereunder (section 52.16(c) of this
Part) have long prohibited health insurance
policies from limiting or excluding coverage based
on type of illness, accident, treatment or medical
condition. None of the exceptions apply to
medically necessary abortions. As a result,
insurance policies that provide hospital,
surgical, or medical expense coverage are
required to include coverage for abortions
that are medically necessary.
(2) Section 52.16(o) of this Part makes explicit
that group and blanket insurance policies that

19a
provide hospital, surgical, or medical
expense coverage delivered or issued for
delivery in this State shall not exclude
coverage for medically necessary abortions.
Section 52.16(o) of this Part also provides for an
optional, limited exemption for religious
employers as provided in that section while
ensuring that coverage is maintained for any
insured seeking a medically necessary abortion
(11 NYCRR § 52(p)) (emphasis added).
Likewise, plaintiffs point to “model language”
issued by NYSDFS, on September 2017, requiring
employers offering health insurance benefits, to
include in their renewal contracts the following:
We Cover medically necessary abortions
including abortions in cases of rape, incest or fetal
malformation. [We Cover elective abortions [for
one (1) procedure per Member, per [calendar year;
Plan Year].
As a result of the above, plaintiffs filed the instant
actions and this matter ensued.
It is well settled that “[s]ummary judgment is a
drastic remedy that should not be granted where there
is any doubt as to the existence of a triable issue”
(Napierski v Finn, 229 AD2d 869, 870 [3d Dept 1996]
[internal quotation marks and citations omitted]). In
deciding whether summary judgment is warranted,
the court’s main function is issue identification, not
issue determination (Sillman v Twentieth Century-Fox
Film Corp., 3 NY2d 395 [1957]). The party seeking
summary judgment has the burden of establishing its
entitlement thereto as a matter of law (Winegard v
New York Univ. Med. Ctr., 64 NY2d 851 [1985]). The

20a
evidence must be construed in a light most favorable
to the party opposing the motion (Dykstra v Winridge
Condominium One, 175 AD2d 482 [3d Dept 1991]). In
order to defeat a motion for summary judgment, the
party opposing the motion must produce evidentiary
proof in admissible form sufficient to establish the
existence of material issues of fact requiring a trial of
the action (Alvarez v Prospect Hospital, 68 NY2d 320
[1986]; Zuckerman v City of New York, 49 NY2d 557
[1980]).
Initially, the Court must address whether plaintiffs
State and Federal Constitutional claims must be
dismissed given the Court of Appeals decision in
Catholic Charities of Diocese of Albany v. Serio, 7
NY3d 510 [2006]) (hereinafter “Catholic Charities”).
In Catholic Charities, plaintiffs were faith-based
organizations affiliated with the Catholic Church and
challenged the New York State Legislature’s
enactment of the Women’s Heath and Wellness Act
(“WHWA”). The WHWA required employer health
insurance contracts to include coverage for the cost of
contraceptives for its employees. The WHWA did
provide an exemption for religious employers so long
as they met certain criteria which would enable them
to contract for a plan that did not contain such
coverage. However, plaintiffs in Catholic Charities did
not qualify for the exemption (Catholic Charities of
Diocese of Albany, 7NY3d at 520).
Given the religious organization’s moral objection to
the mandatory coverage for contraceptives, plaintiffs
in Catholic Charities argued the legislation compelled
them to violate their religious beliefs and was
otherwise unconstitutional. Ultimately, the Court of

21a
Appeals rejected plaintiffs’ claims (Catholic Charities
of Diocese of Albany, 7 NY3d 510).
Defendants urge this Court to dismiss plaintiffs’
constitutional claims based upon the precedent set
forth in the Court of Appeal’s holding in Catholic
Charities. This Court, of course, is obligated to follow
the determinations of the Court of Appeals. “In order
for a statement of law made by the Court of Appeals to
have a binding effect, . . . [the Court] must have
addressed an issue that was before” it (Robinson Motor
Xpress, Inc., v HSBC Bank, USA, 37 AD3d 117, 123
[2d Dept 2006]) (citations omitted). “Principals are not
established by what was said, but by what was
decided, and what was said is not evidence of what was
decided, unless it relates directly to the question
presented for decision” (Robinson Motor Xpress, Inc.,
37 AD3d at 123) (citations omitted).
Here, plaintiffs attempt to preserve their State and
Federal Constitutional claims by arguing the following
distinguishing factors. First, plaintiffs argue the
claims in Catholic Charities were disposed on a motion
for summary judgment, here defendants have filed
motions to dismiss. The Court would note that since
defendants filed their motion to dismiss in Action 1,
the Court converted it to a motion for summary
judgment. In Action 2, plaintiffs have cross-moved for
summary judgment. The Court does not consider the
procedural posture of this case to be a distinguishing
factor from that of Catholic Charities.
Plaintiffs also contend that the plaintiffs in Catholic
Charities challenged a statute (i.e. the WHWA)
whereas here, plaintiffs are challenging a regulation.
Contrary to plaintiffs’ argument, a duly promulgated

22a
regulation has the same force of law as a statute
(Raffellini v State Farm Mut. Auto Ins. Co., 9 NY3d
196, 201 [2007]). Thus, the Court finds the challenges
in both cases to be similar in this regard.
Next, plaintiffs assert that the regulation in this
case does not contain a “carve-out” exemption similar
to the one contained in the WHWA. Defendants
counter plaintiffs’ claim by demonstrating that the
regulation was amended to include an exemption
similar to the exemption addressed in Catholic
Charities (11 NYCRR § 52.1(p)(2)).
Finally, petitioners most notably argue the two
cases are different in that this case involves abortion
and Catholic Charities dealt with coverage for
contraceptives.
Literally speaking, the use of
contraceptives, to prevent pregnancy, is obviously
different than abortion, the act of terminating a
pregnancy.
Legally, however, petitioners’ claims
challenging medical coverage for both contraceptives
and abortion are identical.
Plaintiffs believe
contraceptives and abortion to be a moral “evil” and
the legal mandate compelling coverage for the same a
violation of their core religious beliefs causing a
deprivation of rights.
The Court finds the constitutional claims
challenged in this case to be same as those raised in
Catholic Charities. Given that the Court of Appeal’s
addressed and rejected the same arguments, Catholic
Charities is binding precedent requiring dismissal of
plaintiffs constitutional claims in this matter.
As for plaintiffs consolidated action, in the only
remaining claim, plaintiffs argue the “abortion
mandate” violates the separation of powers and rule

23a
making provision of Article III, § 1, and Article IV, § 8
of the New York State Constitution.
The Court of Appeals, in Matter of LeadingAge N.Y.,
Inc., v Shah (2018 NY Slip Op 06965 [2018]), recently
enunciated the following:
The concept of the separation of powers is the
bedrock of the system of government adopted by
this State in establishing three coordinate and
coequal branches of government, each charged
with performing particular functions.
This
principle requires that the Legislature make the
critical policy decisions, while the executive
branch’s responsibility is to implement those
policies.
Agencies, as creatures of the
Legislature, act pursuant to specific grants of
authority conferred by their creator. Thus, a
legislature may enact a general statute that
reflects its policy choice and grants authority to
an executive agency to adopt and enforce
regulations that expand upon the statutory text
by filling in details consistent with that enabling
legislation. If an agency promulgates a rule
beyond the power it was granted by the
legislature, it usurps the legislative role and
violates the doctrine of separation of powers
(Matter of LeadingAge N.Y., Inc. at *11–12)
(internal quotation marks and citations omitted).
Plaintiffs argue the “abortion mandate” is an
improper delegation of legislative authority to an
administrative agency. The nature of the inquiry as it
relates to such an allegation is whether the legislative
branch of government intended, as evidenced by the
scope and language of the enabling legislation, “to

24a
grant regulatory authority over a specific subject
matter to an administrative agency which exists as
part of the coequal executive branch” (Boreali v
Axelrod, 71 NY2d 1, 15 [1987]).
The Boreali factors include (1) whether the agency
merely “balance[d] costs and benefits according to
preexisting guidelines,” or instead made “value
judgments entailing difficult and complex choices
between broad policy goals to resolve social problems”,
(2) whether the agency “wrote on a clean slate,
creating its own comprehensive set of rules without
the benefit of legislative guidance”, (3) “whether the
legislature has unsuccessfully tried to reach
agreement on the issue, which would indicate that the
matter is a policy consideration for the elected body to
resolve”, and (4) whether any “special expertise or
technical competence” was involved in the
development of the challenged regulation (Greater
N.Y. Taxi Assn, v New York City Taxi & Limousine
Commn., 25 NY3d 600, 610–612 [2015]). These factors
are not mandatory, need not be weighed evenly, and
are essentially guidelines for conducting an analysis of
an agency’s exercise of power (Greater N.Y. Taxi Assn.
25 NY3d at 612).
The Court has considered the Boreali factors. Here,
the Financial Services Law §§ 202(a) and 302 provide
the NYSDFS’s Superintendent with substantial
authority to promulgate regulations. Section 3217 of
the Insurance Law expressly authorizes the
Superintendent to issue regulations that establish
minimum standards for health insurance policies
issued in New York State. As stated above, the
insurance regulations require that all basic and major
medical health care policies issued in New York State

25a
provide coverage for surgical services (11 NYCRR
§ 52). As a result, insurance polices that provide
hospital, surgical, or medical expense coverage are
required, under the law, to include coverage for
abortions that are medically necessary.
The
promulgation of 11 NYCRR § 52(p) is derived from the
above statutory mandates and thus is not an improper
delegation of legislative authority to NYSDFS.
Turning now to plaintiffs’ request for a preliminary
injunction, a court evaluating a motion for a
preliminary injunction must be mindful that “[t]he
purpose of a preliminary injunction is to maintain the
status quo, not to determine the ultimate rights of the
parties” (Matter of Wheaton/TMW Fourth Ave., LP v.
New York City Dept. of Bldgs., 65 AD3d 1051, 1052 [2d
Dept 2009]) Further, “the remedy is considered a
drastic one, which should be used sparingly”
(McLaughlin, Piven, Vogel v. Nolan & Co., 114 AD2d
165, 172 [2d Dept 1986]). As a general rule, the
decision to grant or deny a preliminary injunction lies
within the sound discretion of the Supreme Court (Doe
v Axelrod, 73 NY2d 748 [1988]). The court must
determine if the moving party has established a
likelihood of success on the merits, that it will suffer
irreparable harm if the relief is not granted, and that
equities weigh in the moving party’s favor (CPLR
§ 6301; Nobu Next Door, LLC v Fine Arts Hous., Inc.,
4 NY3d 839, 840 [2005]).
Plaintiffs preliminary injunction application seeks
to prevent enforcement of the “abortion mandate”
implemented by NYSDFS. Plaintiffs argue they have
met the threshold requirement for a preliminary
injunction. Given this Court’s determination that
Catholic Charities is binding precedent, plaintiffs can

26a
not established a likelihood of success on the merits or
that plaintiffs will suffer irreparable harm if the relief
sought is not granted. Likewise, this Court finds,
when balancing the equities in this matter, granting
the preliminary injunction would only serve to limit
the health, medical, and reproductive rights of women
insured by plaintiffs, which goes against this State’s
strong commitment to protecting such rights.
Therefore plaintiffs’ application for a preliminary
injunction must be denied.
The Court has reviewed the parties remaining
contentions and concludes they either lack merit or are
unpersuasive given the Court’s determination
(Hubbard v County of Madison, 71 AD3d 1313 [3d
Dept 2010]).
It is hereby,
ORDERED, that summary judgment is granted
and the consolidated action is hereby dismissed.
This shall constitute the Decision and Order of the
Court. The signing of this Decision, Order and
Judgment shall not constitute entry or filing under
CPLR § 2220. The parties are not relieved from the
applicable provisions of that rule relating to filing,
entry, and notice of entry.
SO ORDERED!
ENTER.
Dated: December 28, 2018
Albany, New York
s/ Richard J. McNally, Jr.
RICHARD J. MCNALLY, JR.
Supreme Court Justice

27a
Papers Considered:
Action No. 1
1. Verified Complaint dated April 29, 2016.
2. Notice of Motion dated September 30, 2016,
Affirmation of Rachel Maman Kish, Esq., with
annexed exhibit, Memorandum of Law.
3. Amended Verified Complaint dated October 26,
2016.
4. Notice of Cross-Motion dated December 28, 2016,
Affirmation of Michael L. Costello, Esq., with
annexed exhibits, Affidavit of Edward B.
Scharfenberger with annexed exhibits, Affidavit of
Sister Robert Mullen with annexed exhibits,
Affidavit of Kevin Pestke, Affidavit of Charles
Caccavale, affidavit of William H. Love with
annexed exhibit, Affidavit of Terry R. Lavalley with
annexed exhibits, Affidavit of Ann L. Nolte,
Affidavit of Patrick T. Murnane with annexed
exhibit, Affidavit of John Fontanella, Memorandum
of Law.
5. Letter by Rachel Maman Kish, Esq., dated
November 16, 2016.
6. Reply Memorandum of Law submitted by Rachel
Maman Kish, Esq. Dated January 23, 2017.
7. Reply Affirmation of Michael L. Costello, Esq.,
dated January 26, 2016, Memorandum of Law.
Action No. 2
1. Verified Complaint dated November 21, 2017.
2. Notice of Motion dated February 2, 2018,
Affirmation of Adrienne J. Kerwin, Esq. with
annexed exhibits, Memorandum of Law.

28a
3. Notice of Cross-Motion dated May 17, 2018,
Affirmation of Michael L. Costello, Esq., in
Opposition to Defendants’ Motion and in Support of
Plaintiffs’ Cross-Motion for Summary Judgment
with annexed exhibits, Affidavit of Edward B.
Scharfenberger in Opposition to Defendants’ Motion
and in Support of Plaintiffs’ Cross-Motion for
Summary Judgment with annexed exhibits,
Memorandum of Law
4. Reply Memorandum of Law submitted by Adrienne
J. Kerwin, Esq. and Helena O. Pederson, Esq. dated
May 31, 2018.
5. Letter by Michael L. Costello, Esq. dated October
25, 2018 with exhibit.

29a

APPENDIX C
State of New York
Court of Appeals
Decided and Entered on the
twenty-fourth day of November, 2020
Present, Hon.
presiding.

Janet

DiFiore,

Chief

Judge,

Mo. No. 2020-549
Roman Catholic Diocese of Albany, et al.,
Appellants,
v.
Maria T. Vullo, &c. et al.,
Respondents,
et al.,
Defendants.
(And Another Related Action.)
Appellant having appealed and moved for leave to
appeal to the Court of Appeals in the above cause;
Upon the papers filed and due deliberation, it is
ORDERED, on the Court's own motion, that the
appeal is dismissed, without costs, upon the ground
that no substantial constitutional question is directly
involved; and it is further
ORDERED, that the motion for leave to appeal is
denied with one hundred dollars costs and necessary
reproduction disbursements.

30a
Chief Judge DiFiore and Judges Rivera, Stein, Garcia,
Wilson and Feinman concur.
Judge Fahey dissents and votes to retain the appeal.
s/ John P. Asiello
John P. Asiello
Clerk of the Court

31a

APPENDIX D
STATE OF NEW YORK
SUPREME COURT
COUNTY OF ALBANY
THE ROMAN
CATHOLIC DIOCESE
OF ALBANY, NEW
YORK; THE ROMAN
CATHOLIC DIOCESE
OF OGDENSBURG;
TRUSTEES OF THE
DIOCESE OF ALBANY;
SISTERHOOD OF ST.
MARY; CATHOLIC
CHARITIES, DIOCESE
OF BROOKLYN;
CATHOLIC CHARITIES
OF THE DIOCESE OF
ALBANY; CATHOLIC
CHARITIES OF THE
DIOCESE OF
OGDENSBURG; ST.
GREGORY THE GREAT
ROMAN CATHOLIC
CHURCH SOCIETY OF
AMHERST, N.Y.; FIRST
BIBLE BAPTIST
CHURCH; OUR
SAVIOR’S LUTHERAN
CHURCH, ALBANY,

AFFIDAVIT OF
EDWARD B.
SCHARFENBERGER
Index No. 02070-16
RJI No. 01-1219-16
Hon. Richard J.
McNally, Jr.

32a
N.Y.; TERESIAN HOUSE
NURSING HOME
COMPANY, INC.;
RENÉE MORGIEWICZ;
AND MURNANE
BUILDING
CONTRACTORS, INC.;
Plaintiffs,
--against-MARIA T. VULLO,
SUPERINTENDENT,
NEW YORK STATE
DEPARTMENT OF
FINANCIAL SERVICES;
CAPITAL DISTRICT
PHYSICIANS’ HEALTH
PLAN, INC.; CDPHP
UNIVERSAL BENEFITS,
INC.; HEALTHNOW
NEW YORK INC.;
UNITEDHEALTH CARE
OF NEW YORK, INC.;
MVP HEALTH CARE,
INC.; EXCELLUS
HEALTH PLAN, INC.;
INDEPENDENT
HEALTH
ASSOCIATION, INC.,
Defendants.
STATE OF NEW YORK
COUNTY OF ALBANY

)
)SS.:

33a
EDWARD B. SCHARFENBERGER, being duly
sworn, deposes and says:
FIRST:
I am the bishop of The Roman Catholic
Diocese, Albany, New York.
SECOND: I hold a Bachelor’s degree in Theology
from Pontifical Gregorian University, a Licentiate in
Sacred Theology from the Academy of St. Alphonsus,
a Licentiate in Canon Law from Catholic University of
America and a Juris Doctor of Law degree from
Fordham University.
THIRD:
I was ordained to the priesthood in 1973
and ordained bishop of The Roman Catholic Diocese of
Albany, New York in 2014 (“Diocese of Albany”). I
have served as the bishop of Albany since that date.
FOURTH: Based on my educational background
and my 43 years of ministry as a Catholic priest and
Bishop, I am fully familiar with Roman Catholic
religious beliefs, theology and religious traditions.
FIFTH:
I am a member of the New York State
Catholic Conference of Bishops, which is the public
policy arm of the Roman Catholic Church in New York
(“Catholic Conference”). I serve as the chair of the
Public Policy Committee of the Catholic Conference.
SIXTH:
I am a member of the United States
Catholic Conference of Bishops, which is the national
association of Catholic Bishops.
SEVENTH: The Diocese of Albany was established in
1847. The New York State Legislature pursuant to
Chapter 283 of the Laws of 1941 incorporated the
Diocese of Albany as a special act corporation. I serve
as its bishop and president.

34a
EIGHTH: The geographic area of the Diocese of
Albany covers fourteen counties in upstate New York.
It has 126 parishes and two apostolates serving a
Catholic population of approximately 325,000. Within
the Diocese of Albany there are 176 diocesan priests,
forty-five religious order priests, 117 ordained
deacons, forty-nine religious brothers and 545
religious sisters. The educational ministry of the
Diocese of Albany includes nineteen parish schools
serving 4,383 students and four diocesan high schools
serving 1,014 students.
NINTH:
The Diocese of Albany sponsors campus
ministries through fourteen chapters staffed by
chaplains, priests and deacons.
It sponsors
catechetical programs throughout the Diocese with
132 leaders, 3002 catechists and forty-three youth
ministries. The Diocese of Albany sponsors parish
faith formation programs for 13,527 elementary and
junior high school students and 4,751 high school
students. Located within the Diocese of Albany are
eight retreat houses and houses of prayer as well as
several religious communities of men, motherhouses,
novitiates and scholasticates for sisters, noviaties for
religious sisters, and religious communities of women.
TENTH:
Catholic Charities of the Diocese of
Albany (“Catholic Charities”) is a special act
corporation of the New York State Legislature and is
an ecclesiastical part of the Diocese of Albany. I served
as the chair of its board of trustees and corporate
members. Catholic Charities administers the social
service ministry of the Diocese of Albany and provides
human service programs and services. The Catholic
Church has a rooted tradition that ministries of a
social service nature which are wholly inseparable

35a
from the broader apostolic mission of the Church and
that such works of charity and mercy are constitutive
of the gospel of Jesus Christ. Catholic Charities,
accordingly, constitutes a part of my ministry as
Bishop of the Diocese of Albany.
ELEVENTH:
The Diocese of Albany, including
its parishes, schools, cemeteries, and Catholic
Charities provides health insurance to 1,074
employees.
TWELFTH:
The Diocese of Albany and
Catholic Charities cannot offer, pay for or provide
employment benefits to its employees that are
inconsistent with Catholic religious teaching and
belief. The Diocese of Albany and Catholic Charities
as parts of the Catholic Church cannot be complicit,
directly or indirectly in facilitating or funding conduct
or activities that violate Catholic religious teaching or
belief. That is why the health insurance plans of the
Diocese of Albany and Catholic Charities must contain
exclusions or exemptions for coverage of abortion,
voluntary sterilization and contraception.
THIRTEENTH: Insurance carriers underwrite the
health plans offered by the Diocese of Albany and
Catholic Charities to their employees, including the
Capital District Physicians’ Health Plan and Blue
Shield of Northeastern New York.
FOURTEENTH: I am advised that the health plans
offered to employees of the Diocese of Albany and
Catholic Charities are regulated by the New York
State Department of Financial Services (“DFS”) and
that it has mandated all health insurance carriers in
New York State to affirmatively provide coverage for
abortion services, including therapeutic, non-

36a
therapeutic and elective abortions, in employer health
insurance plans offered to employees.
FIFTEENTH:
The Diocese of Albany and
Catholic Charities have protested inclusion of abortion
coverage in their employer health insurance plans.
(Attached hereto as Exhibit “A”).
SIXTEENTH:
I am further advised that the DFS
has refused to allow exemptions from abortion
coverage in the health care plans provided to the
Diocese of Albany and Catholic Charities.
SEVENTEENTH: Because of the refusal of DFS to
provide exemptions or exclusions for abortion
coverage, the Catholic Church, through the Diocese of
Albany and Catholic Charities, are placed in the
intolerable position of facilitating, paying for, and
otherwise being complicit in the procurement and
provision of abortion services.
EIGHTEENTH: Providing access to health care
coverage to our employees flows from the religious,
moral and legal obligation we have to pay just wages.
NINETEENTH: Discontinuing
health
care
coverage for our employees violates this religious,
moral and legal obligation and I am advised would
subject the Diocese of Albany, Catholic Charities and
our employees to severe annual penalties.
TWENTIETH:
Providing abortion coverage under
coercion in the health insurance benefit plans of the
Diocese of Albany and Catholic Charities poses an
intolerable burden on the religious freedom rights of
the Catholic Church, has a chilling effect regarding its
right to live according to its religious teachings and
now further threatens to substantially and directly

37a
burden its religious teachings regarding the Church’s
prohibition against abortion.
TWENTY-FIRST: Catholic religious teaching and
belief regarding abortion is clear and unambiguous.
Human life must be respected and protected
absolutely from the moment of conception to natural
death. From the first moment of existence, a human
being must be recognized as having the rights of a
person - among which is the inviolable right of every
innocent being to life. Since the first century, the
Church has affirmed the moral evil of abortion. Direct
abortion, that is to say, abortion willed either as an
end or as a means, is gravely contrary to the moral
law. The Diocese of Albany and Catholic Charities
cannot directly or indirectly cooperate in the
facilitation, funding, procurement or provision of
abortion services.
TWENTY-SECOND:
In
Catholic
religious
teaching, the practice of abortion “is always morally
evil” and “murder” as Pope John Paul II, points out in
his 1995 encyclical letter, Evangelium Vitae:
The deliberate decision to deprive an innocent
human being of his life is always morally evil and
can never be licit either as an end in itself or as a
means to a good end. It is in fact a grave act of
disobedience to the moral law, and indeed to God
himself, the author and guarantor of that law; it
contradicts the fundamental virtues of justice and
charity. ‘Nothing and no one can in any way
permit the killing of an innocent human being,
whether a fetus or an embryo, an infant or an
adult, an old person, or one suffering from an
incurable disease, or a person who is dying.

38a
Furthermore, no one is permitted to ask for this
act of killing, either for himself or herself or for
another person entrusted to his or her care, nor
can he or she consent to it, either explicitly or
implicitly. Nor can any authority legitimately
recommend or permit such an action.’
As far as the right to life is concerned, every
innocent human being is absolutely equal to all
others. This equality is the basis of all authentic
social relationships which, to be truly such, can
only be founded on truth and justice, recognizing
and protecting every man and woman as a person
and not as an object to be used. Before the moral
norm which prohibits the direct taking of the life
of an innocent human being ‘there are no
privileges or exceptions for anyone. It makes no
difference whether one is the master of the world
or the poorest of the poor on the face of the earth.
Before the demands of morality we are all
absolutely equal.’
The moral gravity of procured abortion is
apparent in all its truth if we recognize that we
are dealing with murder and, in particular, when
we consider the specific elements involved. The
one eliminated is a human being at the very
beginning of life.
No one more absolutely
innocent could be imagined.
[W]hat is at stake is so important that, from the
standpoint of moral obligation, the mere
probability that a human person is involved
would suffice to justify an absolutely clear
prohibition of any intervention aimed at killing a
human embryo.

39a
(Pope John Paul II, Evangelium Vitae (1995), ¶¶ 57,
58 [attached hereto as Exhibit “B”].)
TWENTY-THIRD:
It should be noted that Pope
John Paul II specifically expressed the Church’s
concern regarding the increasingly blurred perception
involving abortion. Indeed, the Holy Father exercised
considerable foresight in Evangeliun Vitae in
observing that “human life is sacred and inviolable at
every moment of existence.”
TWENTY-FOURTH:
The Ethical and Religious
Directives for Catholic Health Care Services affirms
this religious teaching in practice:
Abortion (that is, the directly intended
termination of pregnancy before viability or the
directly intended destruction of a viable fetus) is
never permitted. Every procedure whose sole
immediate effect is the termination of pregnancy
before viability is an abortion, which, in its moral
context, includes the interval between conception
and implantation of the embryo. Catholic health
care institutions are not to provide abortion
services, even based upon the principle of
material cooperation. In this context, Catholic
health care institutions need to be concerned
about the danger of scandal in any associations
with abortion providers).
(United States Conference of Catholic Bishops, Ethical
and Religious Directives for Catholic Health Care
Services, Fifth Edition, Directive 45 [Attached hereto
as Exhibit “C”).
TWENTY-FIFTH: The mere act of the institutional
Catholic Church offering its employees access to
abortion, through employment benefit programs, with

40a
coerced subsidization, constitutes the Church’s
complicity, as a matter of Catholic religious belief, in
the funding and facilitation of conduct contrary to
Catholic religious teaching and belief. It is a complete
abrogation of the religious freedom rights of the
Catholic Church for the government to coerce the
Church into complicity with conduct—i.e., abortion—
that the Church clearly and unequivocally teaches to
be sinful and evil.
TWENTY-SIXTH: Moreover, all Catholics are called
upon to live these values honestly, faithfully and
without qualification. As the United States Catholic
Bishops stated, in their pastoral letter Living the
Gospel of Life:
Today, Catholics risk cooperating in a false
pluralism. Secular society will allow believers to
have whatever moral convictions they please—as
long as they keep them on the private preserves
of their consciences, in their homes and churches,
and out of the public arena. Democracy is not a
substitute for morality, nor a panacea for
immorality. Its value stands—or falls—with the
values which it embodies and promotes. Only
tireless promotion of the truth about the human
person can infuse democracy with the right
values. This is what Jesus meant when He asked
us to be leaven in society. American Catholics
have long sought to assimilate into U.S. cultural
life. But in assimilating, we have too often been
digested. We have been changed by our culture
too much, and we have changed it not enough. If
we are leaven, we must bring to our culture the
whole Gospel, which is a Gospel of life and joy.
That is our vocation as believers. And there is no

41a
better place to start than promoting the beauty
and sanctity of human life. Those who would
claim to promote the cause of life through violence
or the threat of violence contradict this Gospel at
its core.
(Pastoral Letter of the National Conference of Catholic
Bishops, Letter the Gospel of Life, (November 1998),
¶¶ 7, 25 & 30 [attached hereto as Exhibit “D”].)
TWENTY-SEVENTH: Our Holy Father, Pope
Francis, recently reaffirmed that abortion represents
a “horrendous crime” and a “very grave sin.”
(cruxnow.com/Vatican, November 20, 2016. [attached
hereto as Exhibit “E”]).
TWENTY-EIGHTH:
By coercing the Catholic
Church into violating its own core religious teachings
regarding abortion, by redefining the Catholic Church
wholly inconsistent with its own theology and
tradition and by forcing it to be complicit in such
religiously prohibited practices, the State has
substantially infringed upon the right of the Church to
honestly and sincerely proclaim the truth of Catholic
teaching by serving as a living example. The State is
forcing the Diocese of Albany and Catholic Charities,
and, consequently, the Catholic Church itself, into
cooperating in the “false pluralism” rejected by the
Catholic Bishops of the United States in Living the
Gospel of Life. Indeed, because all people are called by
God to live the Gospel of Life, the Church must set an
example for all by doing so itself.
TWENTY-NINTH:
It is respectfully requested
that appropriate injunctive relief be granted by the
Court.

42a
s/ Edward B. Scharfenberger
EDWARD B. SCHARFENBERGER

Sworn to before me this 15th
day of December, 2016
s/ Michael L. Costello
Notary Public

MICHAEL L. COSTELLO
NOTARY PUBLIC,
STATE OF NEW YORK
Registration No. 02CO4650023
Qualified in Albany County
Commission Expires October 31, 2017

43a

APPENDIX E
STATE OF NEW YORK
SUPREME COURT
COUNTY OF ALBANY
THE ROMAN CATHOLIC
DIOCESE OF ALBANY,
NEW YORK; THE ROMAN
CATHOLIC DIOCESE OF
OGDENSBURG; TRUSTEES
OF THE DIOCESE OF
ALBANY; SISTERHOOD OF
ST. MARY; CATHOLIC
CHARITIES, DIOCESE OF
BROOKLYN; CATHOLIC
CHARITIES OF THE
DIOCESE OF ALBANY;
CATHOLIC CHARITIES OF
THE DIOCESE OF
OGDENSBURG; ST.
GREGORY THE GREAT
ROMAN CATHOLIC
CHURCH SOCIETY OF
AMHERST, N.Y.; FIRST
BIBLE BAPTIST CHURCH;
OUR SAVIOR’S LUTHERAN
CHURCH, ALBANY, N.Y.;
TERESIAN HOUSE
NURSING HOME
COMPANY, INC.; RENÉE
MORGIEWICZ; AND

AFFIDAVIT OF
TERRY R.
LaVALLEY
Index No. 02070-16
RJI No. 01-1219-16
Hon. Richard J.
McNally, Jr.

44a
MURNANE BUILDING
CONTRACTORS, INC.;
Plaintiffs,
--against-MARIA T. VULLO,
SUPERINTENDENT, NEW
YORK STATE
DEPARTMENT OF
FINANCIAL SERVICES;
CAPITAL DISTRICT
PHYSICIANS’ HEALTH
PLAN, INC.; CDPHP
UNIVERSAL BENEFITS,
INC.; HEALTHNOW NEW
YORK INC.;
UNITEDHEALTH CARE OF
NEW YORK, INC.; MVP
HEALTH CARE, INC.;
EXCELLUS HEALTH
PLAN, INC.:
INDEPENDENT HEALTH
ASSOCIATION, INC.,
Defendants.
STATE OF NEW YORK
COUNTY OF ST. LAWRENCE

)
)SS.:

TERRY R. LaVALLEY, being duly sworn, deposes
and says:
FIRST:
I am the bishop of The Roman Catholic
Diocese of Ogdensburg, New York.

45a
SECOND: I hold a Bachelor’s degree from the
University of the State of New York, a Certificate of
Studies in Philosophy from Wadhams Hall Seminary College, a Master of Divinity degree from Christ The
King Seminary in East Aurora, New York, a Master in
Canon Law and Licentiate Degree in Canon Law from
St. Paul’s University, Ottawa, Ontario, Canada.
THIRD:
I was ordained to the priesthood in 1988
and ordained bishop of The Roman Catholic Diocese of
Ogdensburg, New York in 2010 (“Diocese of
Ogdensburg”).
I have served as the bishop of
Ogdensburg since that date.
FOURTH: Based on my educational background
and my twenty-eight-year ministry as a Catholic
priest and bishop, I am fully familiar with Roman
Catholic religious beliefs, theology and religious
traditions.
FIFTH:
I am a member of the New York State
Catholic Conference of Bishops, which is the public
policy arm of the Roman Catholic Church in New York
(“Catholic Conference”).
SIXTH:
I am a member of the United States
Catholic Conference of Catholic Bishops which is the
national association of Catholic Bishops.
SEVENTH: The Diocese of Ogdensburg was
established in 1872. I serve as its bishop and
president.
EIGHTH: The geographic area of the Diocese of
Ogdensburg includes all of St. Lawrence, Franklin,
Clinton, Jefferson, Lewis and Essex counties and
portions of Hamilton and Herkimer counties. It has
93 parishes, 7 missions, 92 priests, and 90 sisters. The

46a
educational ministry of the Diocese of Ogdensburg
includes 10 elementary school and 2 high schools.
NINTH:
Catholic Charities of the Diocese of
Ogdensburg (“Catholic Charities”) was established in
1917. It is a Special Act corporation of the New York
State Legislature and is an ecclesiastical part of the
Diocese of Ogdensburg. I serve as the chair of its board
of trustees. Catholic Charities administers the social
service ministry of the Diocese of Ogdensburg and
provides human service programs and services. The
Catholic Church has a rooted tradition that ministries
of a social service nature which are wholly inseparable
from the broader apostolic mission of the Church and
that such works of charity and mercy are constitutive
of the gospel of Jesus Christ. Catholic Charities,
accordingly, constitutes a part of my ministry as
Bishop of the Diocese of Ogdensburg.
TENTH:
The Diocese of Ogdensburg including its
parishes, schools and Catholic Charities provides
health insurance to 249 employees.
ELEVENTH:
The Diocese of Ogdensburg and
Catholic Charities cannot offer, pay for or provide
employment benefits to its employees that are
inconsistent with Catholic religious teaching and
belief. The Diocese of Ogdensburg and Catholic
Charities as parts of the Catholic Church cannot be
complicit, directly or indirectly in facilitating or
funding conduct or activities that violate Catholic
religious teaching or belief. That is why the health
insurance plans of the Diocese of Ogdensburg and
Catholic Charities must contain exclusions or
exemptions for coverage of abortion, voluntary
sterilization and contraception.

47a
TWELFTH:
The insurance carrier that
underwrites the health plan offered by the Diocese of
Ogdensburg and Catholic Charities to their
employees, is Excellus.
THIRTEENTH: I am advised that the health plans
offered to employees of the Diocese of Ogdensburg and
Catholic Charities are regulated by the New York
State Department of Financial Services (“DFS”) and
that it has mandated all health insurance carriers in
New York State to affirmatively provide coverage for
abortion services, including therapeutic, nontherapeutic and elective abortions, in employer health
insurance plans offered to employees.
FOURTEENTH: The Diocese of Ogdensburg has
protested inclusion of abortion coverage in its
employer health insurance plan. (Attached hereto as
Exhibit “A”).
FIFTEENTH:
Excellus and DFS have refused to
allow exemptions from abortion coverage in the health
care plan provided to the Diocese of Ogdensburg.
(Attached hereto as Exhibit “B”).
SIXTEENTH:
Because of the refusal of DFS and
Excellus exemptions or exclusions for abortion
coverage, the Catholic Church, through the Diocese of
Ogdensburg, are placed in the intolerable position of
facilitating, paying for, and otherwise being complicit
in the procurement and provision of abortion services.
SEVENTEENTH: Providing access to health care
coverage to our employees flows from the religious,
moral and legal obligation we have to pay just wages.
EIGHTEENTH: Discontinuing
health
care
coverage for our employees violates this religious,
moral and legal obligation and I am advised would

48a
subject the Diocese of Ogdensburg and our employees
to severe annual penalties.
NINETIETH:
Providing abortion coverage under
coercion in the health insurance benefit plan of the
Diocese of Ogdensburg poses an intolerable burden on
the religious freedom rights of the Catholic Church,
has a chilling effect regarding its right to live
according to its religious teachings and now further
threatens to substantially and directly burden its
religious teachings regarding the Church’s prohibition
against abortion.
TWENTIETH:
Catholic religious teaching and
belief regarding abortion is clear and unambiguous.
Human life must be respected and protected
absolutely from the moment of conception to natural
death. From the first moment of existence, a human
being must be recognized as having the rights of a
person—among which is the inviolable right of every
innocent being to life. Since the first century, the
Church has affirmed the moral evil of abortion. Direct
abortion, that is to say, abortion willed either as an
end or as a means, is gravely contrary to the moral
law. The Diocese of Ogdensburg cannot directly or
indirectly cooperate in the facilitation, funding,
procurement or provision of abortion services.
TWENTY-FIRST: In Catholic religious teaching, the
practice of abortion “is always morally evil” and
“murder” as Pope John Paul II, points out in his 1995
encyclical letter, Evangelium Vitae:
The deliberate decision to deprive an innocent
human being of his life is always morally evil and
can never be licit either as an end in itself or as a
means to a good end. It is in fact a grave act of

49a
disobedience to the moral law, and indeed to God
himself, the author and guarantor of that law; it
contradicts the fundamental virtues of justice and
charity. ‘Nothing and no one can in any way
permit the killing of an innocent human being,
whether a fetus or an embryo, an infant or an
adult, an old person, or one suffering from an
incurable disease, or a person who is dying.
Furthermore, no one is permitted to ask for this
act of killing, either for himself or herself or for
another person entrusted to his or her care, nor
can he or she consent to it, either explicitly or
implicitly. Nor can any authority legitimately
recommend or permit such an action.’
As far as the right to life is concerned, every
innocent human being is absolutely equal to all
others. This equality is the basis of all authentic
social relationships which, to be truly such, can
only be founded on truth and justice, recognizing
and protecting every man and woman as a person
and not as an object to be used.
Before the moral norm which prohibits the direct
taking of the life of an innocent human being
‘there are no privileges or exceptions for anyone.
It makes no difference whether one is the master
of the world or the poorest of the poor on the face
of the earth. Before the demands of morality we
are all absolutely equal.’
The moral gravity of procured abortion is
apparent in all its truth if we recognize that we
are dealing with murder and, in particular, when
we consider the specific elements involved. The
one eliminated is a human being at the very

50a
beginning of life.
No one more absolutely
innocent could be imagined.
[W]hat is at stake is so important that, from the
standpoint of moral obligation, the mere
probability that a human person is involved
would suffice to justify an absolutely clear
prohibition of any intervention aimed at killing a
human embryo.
(Pope John Paul II, Evangelium Vitae (1995), ¶¶ 57,
58 [attached hereto as Exhibit “C”].)
TWENTY-SECOND:
It should be noted that Pope
John Paul II specifically expressed the Church’s
concern regarding the increasingly blurred perception
involving abortion. Indeed, the Holy Father exercised
considerable foresight in Evangelium Vitae in
observing that “human life is sacred and inviolable at
every moment of existence.”
TWENTY-THIRD:
The Ethical and Religious
Directives for Catholic Health Care Services affirms
this religious teaching in practice:
Abortion (that is, the directly intended
termination of pregnancy before viability or the
directly intended destruction of a viable fetus) is
never permitted. Every procedure whose sole
immediate effect is the termination of pregnancy
before viability is an abortion, which, in its moral
context, includes the interval between conception
and implantation of the embryo. Catholic health
care institutions are not to provide abortion
services, even based upon the principle of
material cooperation. In this context, Catholic
health care institutions need to be concerned

51a
about the danger of scandal in any associations
with abortion providers).
(United States Conference of Catholic Bishops, Ethical
and Religious Directives for Catholic Health Care
Services, Fifth Edition, Directive 45 [Attached hereto
as Exhibit “D”).
TWENTY-FOURTH:
The mere act of the
institutional Catholic Church offering its employees
access to abortion, through employment benefit
programs, with coerced subsidization, constitutes the
Church’s complicity, as a matter of Catholic religious
belief, in the funding and facilitation of conduct
contrary to Catholic religious teaching and belief. It is
a complete abrogation of the religious freedom rights
of the Catholic Church for the government to coerce
the Church into complicity with conduct—i.e.,
abortion—that the Church clearly and unequivocally
teaches to be sinful and evil.
TWENTY-FIFTH:
Moreover, all Catholics are
called upon to live these values honestly, faithfully
and without qualification. As the United States
Catholic Bishops stated, in their pastoral letter Living
the Gospel of Life:
Today, Catholics risk cooperating in a false
pluralism. Secular society will allow believers to
have whatever moral convictions they please—as
long as they keep them on the private preserves
of their consciences, in their homes and churches,
and out of the public arena. Democracy is not a
substitute for morality, nor a panacea for
immorality. Its value stands—or falls—with the
values which it embodies and promotes. Only
tireless promotion of the truth about the human

52a
person can infuse democracy with the right
values. This is what Jesus meant when He asked
us to be leaven in society. American Catholics
have long sought to assimilate into U.S. cultural
life. But in assimilating, we have too often been
digested. We have been changed by our culture
too much, and we have changed it not enough. If
we are leaven, we must bring to our culture the
whole Gospel, which is a Gospel of life and joy.
That is our vocation as believers. And there is no
better place to start than promoting the beauty
and sanctity of human life. Those who would
claim to promote the cause of life through violence
or the threat of violence contradict this Gospel at
its core.
(Pastoral Letter of the National Conference of Catholic
Bishops, Letter the Gospel of Life, (November 1998),
¶¶ 7, 25 & 30 [attached hereto as Exhibit “E”].)
TWENTY-SIXTH:
Our Holy Father, Pope
Francis, recently reaffirmed that abortion represents
a “horrendous crime” and a “very grave sin.”
(cruxnow.com/Vatican, November 20, 2016. [attached
hereto as Exhibit “F”]).
TWENTY-SEVENTH: By coercing the Catholic
Church into violating its own core religious teachings
regarding abortion, by redefining the Catholic Church
wholly inconsistent with its own theology and
tradition and by forcing it to be complicit in such
religiously prohibited practices, the State has
substantially infringed upon the right of the Church to
honestly and sincerely proclaim the truth of Catholic
teaching by serving as a living example. The State is
forcing the Diocese of Albany and Catholic Charities,

53a
and, consequently, the Catholic Church itself, into
cooperating in the “false pluralism” rejected by the
Catholic Bishops of the United States in Living the
Gospel of Life. Indeed, because all people are called by
God to live the Gospel of Life, the Church must set an
example for all by doing so itself.
TWENTY-EIGHTH:
It is respectfully requested
that appropriate injunctive relief be granted by the
Court.
s/ Terry R. LaValley
TERRY R. LaVALLEY
Sworn to before me this
21st day of December, 2016
s/ Kevin J. O’Brien
Notary Public

KEVIN J. O’BRIEN
Notary Public, State of New York
No. 4973769
Qualified in Onondaga County
Commission Expires October 29, 2018

54a

APPENDIX F
STATE OF NEW YORK
SUPREME COURT
COUNTY OF ALBANY
THE ROMAN CATHOLIC
DIOCESE OF ALBANY,
NEW YORK; THE ROMAN
CATHOLIC DIOCESE OF
OGDENSBURG; TRUSTEES
OF THE DIOCESE OF
ALBANY; SISTERHOOD OF
ST. MARY; CATHOLIC
CHARITIES, DIOCESE OF
BROOKLYN; CATHOLIC
CHARITIES OF THE
DIOCESE OF ALBANY;
CATHOLIC CHARITIES OF
THE DIOCESE OF
OGDENSBURG; ST.
GREGORY THE GREAT
ROMAN CATHOLIC
CHURCH SOCIETY OF
AMHERST, N.Y.; FIRST
BIBLE BAPTIST CHURCH;
OUR SAVIOR’S LUTHERAN
CHURCH, ALBANY, N.Y.;
TERESIAN HOUSE
NURSING HOME
COMPANY, INC.; RENÉE
MORGIEWICZ; AND

AFFIDAVIT OF
WILLIAM H.
LOVE
Index No. 02070-16
RJI No. 01-1219-16
Hon. Richard J.
McNally, Jr.

55a
MURNANE BUILDING
CONTRACTORS, INC.;
Plaintiffs,
--against-MARIA T. VULLO,
SUPERINTENDENT, NEW
YORK STATE
DEPARTMENT OF
FINANCIAL SERVICES;
CAPITAL DISTRICT
PHYSICIANS’ HEALTH
PLAN, INC.; CDPHP
UNIVERSAL BENEFITS,
INC.; HEALTHNOW NEW
YORK INC.;
UNITEDHEALTH CARE OF
NEW YORK, INC.; MVP
HEALTH CARE, INC.;
EXCELLUS HEALTH
PLAN, INC.:
INDEPENDENT HEALTH
ASSOCIATION, INC.,
Defendants.
STATE OF NEW YORK
COUNTY OF ALBANY

)
)SS.:

WILLIAM H. LOVE, being duly sworn, deposes and
says:
FIRST:
I am the Bishop of the Episcopal Diocese
of Albany, New York, (“Episcopal Diocese”)

56a
SECOND: The Trustees of the Diocese of Albany is
the civil entity of the Episcopal Diocese.
THIRD:
I hold a Bachelor’s degree from
Southwest Texas State University, a Master of
Education degree from SUNY Plattsburgh, and a
Master of Divinity degree from Nashotah House
Episcopal Seminary.
FOURTH: I was ordained a Deacon in 1991 and to
the priesthood in 1992.
FIFTH:
In 2006, I was consecrated bishop and
served as Bishop Coadjutor of the Episcopal Diocese of
Albany. In 2007, I was installed as Bishop Diocesan
of the Episcopal Diocese of Albany. I have served as
Bishop of the Episcopal Diocese of Albany since that
date.
SIXTH:
The Episcopal Diocese of Albany was
established in 1868. The geographic area of the
Diocese covers 19 counties in upstate New York. It has
119 churches and ministries serving the Episcopal
population of the Diocese. Within the Diocese of
Albany there are 190 canonically resident priests and
deacons, and six religious sisters.
SEVENTH: The Episcopal Diocese of Albany
sponsors catechetical and faith formation programs
throughout the Diocese.
EIGHTH: The Episcopal Diocese of Albany has over
20 employees eligible for health insurance benefits.
NINTH:
The Episcopal Diocese’s health insurance
plan company is provided by Blue Shield Northeastern
New York health plan (“BSNENY”).
TENTH:
The BSNENY plan for the Episcopal
Diocese provides:

57a
M. Interruption of Pregnancy.
We cover therapeutic abortion; we
also
cover
non-therapeutic
abortions in case of rape, incest or
fetal malformation.
We cover
elective abortion for one (1)
procedure per member per plan
year.
[BSNENY Group Policy
#11441814, P.43. Copy attached as
Exhibit “A”]
ELEVENTH:
The Episcopal Diocese of Albany
resolutely affirms the sanctity of human life as a gift
from God from conception until natural death.
TWELFTH:
Coerced subsidization of abortion
procedures under the health insurance plan provided
to the Episcopal Diocese of Albany is in direct violation
of religious and moral teachings and beliefs.
Cooperation in facilitating abortion services is a grave
matter violating core beliefs of the Episcopal Diocese
of Albany.
THIRTEENTH: It is respectfully requested that
appropriate injunctive relief be granted by the Court.
s/ William H. Love
WILLIAM H. LOVE
Sworn to before me this 19th
day of December, 2016

s/ Michael L. Costello
Notary Public

58a
MICHAEL L. COSTELLO
NOTARY PUBLIC,
STATE OF NEW YORK
Registration No. 02CO4650023
Qualified in Albany County
Commission Expires October 31, 2017

59a

APPENDIX G
STATE OF NEW YORK
SUPREME COURT
COUNTY OF ALBANY
THE ROMAN CATHOLIC
DIOCESE OF ALBANY,
NEW YORK; THE ROMAN
CATHOLIC DIOCESE OF
OGDENSBURG; TRUSTEES
OF THE DIOCESE OF
ALBANY; SISTERHOOD OF
ST. MARY; CATHOLIC
CHARITIES, DIOCESE OF
BROOKLYN; CATHOLIC
CHARITIES OF THE
DIOCESE OF ALBANY;
CATHOLIC CHARITIES OF
THE DIOCESE OF
OGDENSBURG; ST.
GREGORY THE GREAT
ROMAN CATHOLIC
CHURCH SOCIETY OF
AMHERST, N.Y.; FIRST
BIBLE BAPTIST CHURCH;
OUR SAVIOR’S LUTHERAN
CHURCH, ALBANY, N.Y.;
TERESIAN HOUSE
NURSING HOME
COMPANY, INC.; RENÉE
MORGIEWICZ; AND

AFFIDAVIT OF
SISTER ROBERT
MULLEN
Index No. 02070-16
RJI No. 01-1219-16
Hon. Richard J.
McNally, Jr.

60a
MURNANE BUILDING
CONTRACTORS, INC.;
Plaintiffs,
--against-MARIA T. VULLO,
SUPERINTENDENT, NEW
YORK STATE
DEPARTMENT OF
FINANCIAL SERVICES;
CAPITAL DISTRICT
PHYSICIANS’ HEALTH
PLAN, INC.; CDPHP
UNIVERSAL BENEFITS,
INC.; HEALTHNOW NEW
YORK INC.;
UNITEDHEALTH CARE OF
NEW YORK, INC.; MVP
HEALTH CARE, INC.;
EXCELLUS HEALTH
PLAN, INC.:
INDEPENDENT HEALTH
ASSOCIATION, INC.,
Defendants.
STATE OF NEW YORK
COUNTY OF ALBANY

)
)SS.:

SISTER ROBERT MULLEN, being duly sworn,
deposes and says:
FIRST:
I am member of the religious order
known as Carmelite Sisters for Aged and Infirmed.

61a
SECOND: I serve as the administrator of Teresian
House Nursing Home Co., Inc. (“Teresian House”)
located in Albany, New York.
THIRD:
Teresian House provides a continuum of
services to enhance the physical, spiritual
and emotional well-being of the elderly.
FOURTH: Teresian House is sponsored by and
affiliated with the Roman Catholic Diocese of Albany.
FIFTH:
Teresian House is operated by the
Carmelite Sister for the Aged and Infirmed.
SIXTH:
Teresian House is a religiously-affiliated
employer whose employees are covered by Capital
District Physicians Health Plan (“CDPHP”).
SEVENTH: Teresian House has 450 full and parttime employees.
Health insurance benefits are
provided to 204 employees through the CDPHP plan.
EIGHTH: Teresian House requested that CDPHP
and New York State Department of Financial Services
to provide an exemption from coverage mandates
involving all abortion mandates including therapeutic,
non-therapeutic and elective abortions from Group
Policy No. 10028081. (See attached Exhibit “A”).
NINTH:

This request has been refused.

TENTH:
Facilitation of abortion, including
coerced subsidization, represents a critical moral
injury to our mission and a violation of the Ethical and
Religious Directives for Catholic Health Care Services.
ELEVENTH:
Mandating Teresian House to
provide coverage for abortion services substantially
burdens our right as a Roman Catholic employer to
freely practice our sincerely-held religious beliefs in

62a
accordance with the doctrines and teachings of the
Roman Catholic Church.
TWELFTH:
Providing healthcare coverage to
our employees flows from the religious, moral and
legal obligations we have to pay just wages.
THIRTEENTH: Withdrawing healthcare coverage
from our employees would subject Teresian House and
our employees to severe annual penalties.
s/ Sister Robert Mullen
Sister Robert Mullen
Sworn to before me this 19
day of December, 2016
s/ Heather M. Sheldon
Notary Public

HEATHER M. SHELDON
NOTARY PUBLIC-STATE OF NEW YORK
NO. 01SH6339278
QUALIFIED IN SCHENECTADY COUNTY
MY COMMISSION EXPIRES 03-28-2020

63a

APPENDIX H
STATE OF NEW YORK
SUPREME COURT
COUNTY OF ALBANY
THE ROMAN CATHOLIC
DIOCESE OF ALBANY,
NEW YORK; THE ROMAN
CATHOLIC DIOCESE OF
OGDENSBURG; TRUSTEES
OF THE DIOCESE OF
ALBANY; SISTERHOOD OF
ST. MARY; CATHOLIC
CHARITIES, DIOCESE OF
BROOKLYN; CATHOLIC
CHARITIES OF THE
DIOCESE OF ALBANY;
CATHOLIC CHARITIES OF
THE DIOCESE OF
OGDENSBURG; ST.
GREGORY THE GREAT
ROMAN CATHOLIC
CHURCH SOCIETY OF
AMHERST, N.Y.; FIRST
BIBLE BAPTIST CHURCH;
OUR SAVIOR’S LUTHERAN
CHURCH, ALBANY, N.Y.;
TERESIAN HOUSE
NURSING HOME
COMPANY, INC.; RENÉE
MORGIEWICZ; AND

AFFIDAVIT OF
KEVIN PESTKE
Index No. 02070-16
RJI No. 01-1219-16
Hon. Richard J.
McNally, Jr.

64a
MURNANE BUILDING
CONTRACTORS, INC.;
Plaintiffs,
--against-MARIA T. VULLO,
SUPERINTENDENT, NEW
YORK STATE
DEPARTMENT OF
FINANCIAL SERVICES;
CAPITAL DISTRICT
PHYSICIANS’ HEALTH
PLAN, INC.; CDPHP
UNIVERSAL BENEFITS,
INC.; HEALTHNOW NEW
YORK INC.;
UNITEDHEALTH CARE OF
NEW YORK, INC.; MVP
HEALTH CARE, INC.;
EXCELLUS HEALTH
PLAN, INC.:
INDEPENDENT HEALTH
ASSOCIATION, INC.,
Defendants.
STATE OF NEW YORK
COUNTY OF MONROE

)
)SS.:

KEVIN PESTKE, being duly sworn, deposes and
says:
FIRST:
I am an ordained Baptist minister and
serve as the Pastor of First Bible Baptist Church.

65a
SECOND: First Bible Baptist Church (“First Bible”)
is a religious corporation duly organized and existing
under the laws of the State of New York and is exempt
from Federal income tax pursuant to Section 501(c)(3)
of the Internal Revenue Code.
THIRD:
The purpose of First Bible is to proclaim
and witness the Gospel of Jesus Christ through
ministries of Christian love to those who may be
served.
FOURTH: First Bible’s congregation is a confluence
of cultural, ethnic and racial diversity constituting a
family of faith which includes individuals of varied
religious backgrounds.
FIFTH:
Some of the programs and services
offered by First Bible to the community include youth
ministry, adult ministry, death ministry, education
ministry, athletic activities, daycare and pre-school
and mission ministry. First Bible also operates its
education ministry through Northstar Christian
Academy, grades K through 12 and a daycare agency.
SIXTH:
First Bible currently employs over sixty
people in a variety of positions. All of our employees,
regardless of their religious backgrounds share First
Bible’s commitment to strive for a just, compassionate
society that supports the dignity of individuals and
families, reduce the causes and results of poverty, and
build healthy communities through our many diverse,
human service outreach programs. When an employee
is hired and accepts an employment with First Bible,
he or she clearly accepts such employment with the
understanding that First Bible is a Baptist institution
that conducts its operation in conformance with its
Articles of Faith.

66a
SEVENTH: First Bible offers health benefits to its
eligible employees consistent with its legal obligation.
Approximately thirty employees received their health
insurance from First Bible. The enrolled employees of
First Bible are covered under the health plan
underwritten by Excellus Blue Cross/Blue Shield.
EIGHTH: Because First Bible is a Baptist
organization, our policies and employment benefits
must be consistent with the Articles of Faith. Our
Articles of Faith teach that human life begins at
conception and that the unborn child is a living human
being.
Furthermore, abortion constitutes the
unjustified, unexcused taking of unborn human life.
(Jobe 3: 16 Psalms 51:5; 139: 14–16; Isaiah 44:24; 49:1,
5; Jeremiah 1:5; 20:15–18; Luke 1:44).
NINTH:
Because the Articles of Faith teach that
abortion is contrary to the Scriptures, facilitating and
subsidizing abortion procedures is unacceptable. Our
health benefit plan must exclude coverage for any
abortion procedures.
TENTH:
I am advised that the health plan offered
by Excellus includes coverage for therapeutic, nontherapeutic and elective abortions.
ELEVENTH:
I am advised that discontinuing
healthcare coverage for our employees would violate
the legal obligation to provide benefits to our
employees and would subject First Bible and its
employees to substantial annual penalties.
TWELFTH:
Because of these religious beliefs
First Bible cannot support and facilitate coverage of
abortion services through the Excellus health
insurance plan which First Bible is forced to pay.

67a
THIRTEENTH: It is respectfully requested that
appropriate injunctive relief be granted by Court.
s/ Kevin Pestke
Kevin Pestke
Sworn to before me this 22nd
day of December 2016.
s/ Karen E. Reel
Notary Public

KAREN E. REEL
NOTARY PUBLIC, STATE OF NEW YORK
NO. 01RE6089185
QUALIFIED IN MONROE COUNTY
MY COMMISSION EXPIRES MARCH 17, 2019

68a

APPENDIX I
NEW YORK STATE
DEPARTMENT OF FINANCIAL SERVICES
PROPOSED
FORTY-EIGHTH AMENDMENT TO
11 NYCRR 52
(INSURANCE REGULATION 62)
MINIMUM STANDARDS FOR FORM,
CONTENT AND SALE OF HEALTH
INSURANCE, INCLUDING STANDARDS OF
FULL AND FAIR DISCLOSURE
I, Maria T. Vullo, Superintendent of Financial
Services, pursuant to the authority granted by
Sections 202 and 302 of the Financial Services Law
and Sections 301, 3201, 3217, 3221, 4235, 4237, and
4303 of the Insurance Law, do hereby promulgate the
Forty-Eighth Amendment to Part 52 of Title 11 of the
Official Compilation of Codes, Rules and Regulations
of the State of New York (Insurance Regulation No.
62), to take effect 60 days after publication in the State
Register, to read as follows:
(ALL MATERIAL IS NEW)
Subdivision 52.1(p) is added as follows:
(p)(1) Subject to certain limited exceptions,
Insurance Law section 3217 and regulations
promulgated thereunder (section 52.16(c) of this Part)
have long prohibited health insurance policies from
limiting or excluding coverage based on type of illness,
accident, treatment or medical condition. None of the
exceptions apply to medically necessary abortions. As

69a
a result, insurance policies that provide hospital,
surgical, or medical expense coverage are required to
include coverage for abortions that are medically
necessary.
(2) Section 52.16(o) of this Part makes explicit that
group and blanket insurance policies that provide
hospital, surgical, or medical expense coverage
delivered or issued for delivery in this State shall not
exclude coverage for medically necessary abortions.
Section 52.16(o) of this Part also provides for an
optional, limited exemption for religious employers
and qualified religious organization employers as
provided in that section while ensuring that coverage
is maintained for any insured seeking a medically
necessary abortion.
Subdivisions 52.2(y), (z), and (aa) are added as
follows:
(y) Religious employer shall have the meaning set
forth in Insurance Law sections 3221(l)(16)(A)(1) and
4303(cc)(1)(A).
(z) Qualified religious organization employer means
an organization that:
(1) opposes medically necessary abortions on
account of a firmly-held religious belief; and
(2)(i) is organized and operates as a nonprofit
entity and holds itself out as a religious
organization; or
(ii) is organized and operates as a closely held
for-profit entity, as defined in subdivision (aa) of
this section, and the organization’s highest
governing body (such as its board of directors,
board of trustees, or owners, if managed directly

70a
by its owners) has adopted a resolution or similar
action, under the organization’s applicable rules
of governance and consistent with state law,
establishing that it objects to covering medically
necessary abortions on account of the owners’
sincerely held religious beliefs.
(aa) Closely held for-profit entity means an entity
that:
(1) is not a nonprofit entity;
(2) has no publicly traded ownership interests (for
this purpose, a publicly traded ownership interest is
any class of common equity securities required to be
registered under section 12 of the Securities Exchange
Act of 1934); and
(3) has more than 50 percent of the value of its
ownership interest owned directly or indirectly by five
or fewer individuals, or has an ownership structure
that is substantially similar thereto, as of the date of
the entity’s certification described in section
52.16(o)(2) of this Part; provided, however, that:
(i) ownership interests owned by a corporation,
partnership, estate, or trust are considered owned
proportionately by such entity’s shareholders,
partners, or beneficiaries and ownership interests
owned by a nonprofit entity are considered owned
by a single owner;
(ii) an individual is considered to own the
ownership interests owned, directly or indirectly, by
or for the individual’s family, provided that, for the
purposes of this subdivision, “family” includes only
brothers, sisters, a spouse, ancestors, and lineal
descendants; and

71a
(iii) if an individual holds an option to purchase
ownership interests, then the individual is
considered to be the owner of those ownership
interests.
Subdivision 52.16(o) is added as follows:
(o)(1) No policy delivered or issued for delivery in
this State that provides hospital, surgical, or medical
expense coverage shall limit or exclude coverage for
abortions that are medically necessary. Coverage for
abortions that are medically necessary shall not be
subject to copayments, or coinsurance, or annual
deductibles, unless the policy is a high deductible
health plan as defined in section 223(c)(2) of the
Internal Revenue Code in which case coverage for
medically necessary abortions may be subject to the
plan’s annual deductible.
(2) Notwithstanding any other provision of this
Part, a group or blanket policy that provides hospital,
surgical, or medical expense coverage delivered or
issued for delivery in this State to a religious employer
or qualified religious organization employer may
exclude coverage for medically necessary abortions
only if the insurer:
(i) obtains an annual certification from the
group or blanket policyholder or contract holder
that the policyholder or contract holder is a religious
employer or qualified religious organization
employer and that it has a religious objection to
coverage for medically necessary abortions; and
(ii) issues a rider to each certificate holder (i.e.,
primary insured) at no premium to be charged to the
certificate holder (i.e., primary insured), religious
employer, or qualified religious organization

72a
employer for the rider, that provides coverage for
medically necessary abortions subject to the same
rules as would have been applied to the same
category of treatment in the policy issued to the
religious
employer
or
qualified
religious
organization employer. The rider must clearly and
conspicuously specify that the religious employer or
qualified religious organization employer does not
administer medically necessary abortion benefits,
but that the insurer is issuing a rider for coverage
of medically necessary abortions, and shall provide
the insurer’s contact information for questions.

73a

APPENDIX J
Regulatory Impact Statement for the Proposed FortyEighth Amendment to 11 NYCRR 52 (Insurance
Regulation 62).
1. Statutory authority: Financial Services Law
(“FSL”) sections 202 and 302 and Insurance Law (“IL”)
sections 301, 3201, 3217, 3221, 4235, 4237, and 4303.
FSL section 202 establishes the office of the
Superintendent
of
Financial
Services
(“Superintendent”). FSL section 302 and IL section
301, in pertinent part, authorize the Superintendent
to prescribe regulations interpreting the IL and to
effectuate any power granted to the Superintendent in
the IL, FSL, or any other law.
IL section 3201 subjects policy forms to the
Superintendent’s approval.
IL section 3217 authorizes the Superintendent to
issue regulations to establish minimum standards,
including standards for full and fair disclosure, for the
form, content and sale of accident and health
insurance policies and subscriber contracts of
corporations organized under IL Article 32 and Article
43, and Public Health Law Article 44.
IL section 3221 prohibits a policy of group or blanket
accident and health insurance, except as provided in
IL section 3221(d), to be delivered or issued for
delivery in New York unless it contains in substance
the provisions set forth therein·or provisions that are
in the opinion·of the Superintendent more favorable to
the holders of such certificates or not less favorable to

74a
the holders of such certificates and more favorable to
policyholders.
IL section 4235 defines a group accident insurance
policy, group health insurance policy, and group
accident and health insurance policy.
IL section 4237 defines a blanket accident insurance
policy, blanket health insurance policy, and blanket
accident and health insurance policy.
IL section 4303 sets forth the benefits that every
contract issued by a hospital service corporation or
health service coverage must provide.
2. Legislative objectives:
IL section 3217
authorizes the Superintendent to issue regulations to
establish minimum standards, including standards for
full and fair disclosure, for the form content and sale
of accident and health insurance policies and
subscriber contracts of corporations organized under
IL, Article 32 and Article 43, and Public Health Law
Article 44. 11 NYCRR 52 (Insurance Regulation 62)
was promulgated pursuant to this section, and section
52.16(c) of Regulation 62 prohibits a policy or contract
from limiting or excluding coverage by type of illness,
accident, treatment, or medical condition, except in
certain limited circumstances.
This amendment accords with the public policy
objectives that the Legislature sought to advance in IL
section 3217 by making explicit that individual, group
and blanket accident insurance policies and contracts
that provide hospital, surgical, or medical expense
coverage delivered or issued for delivery in New York
may not exclude coverage for medically necessary
abortions and must provide such coverage at no cost
sharing.
The amendment also provides for an

75a
optional, limited exemption for religious employers
and qualified religious organization employers
(collectively, “religious employers”) while ensuring
that medically necessary abortion coverage is
maintained for any insured of a policy issued to a
religious employer at no additional cost to the insured.
3. Needs and benefits:
Section 52.16(c) of
Regulation 62 already prohibits a policy or contract
from limiting or excluding coverage by type of illness,
accident, treatment, or medical condition, except in
certain limited circumstances. None of the exceptions
apply to medically necessary abortions. As a result,
insurance policies and contracts that provide hospital,
surgical, or medical expense coverage must include
coverage for medically necessary abortions. This
amendment makes explicit that individual, group and
blanket accident insurance policies and contracts that
provide hospital, surgical, or medical expense coverage
delivered or issued for delivery in New York may not
exclude coverage for medically necessary abortions
and must provide such coverage at no cost sharing.
In addition, the amendment provides for an
optional, limited exemption for religious employers.
However, the amendment still ensures that medically
necessary abortion coverage is maintained for any
insured of a policy issued to a religious employer at no
additional cost to the insured by requiring an insurer
to issue a rider to each certificate holder of a policy
issued to the religious employer that provides
coverage for medically necessary abortions, at no
premium to be charged to the certificate holder or
religious employer.

76a
4. Costs: Since insurers already are required to
provide coverage for medical necessary abortions,
insurers should not need to incur costs to file new
policy or contract forms with the Superintendent.
Insurers may incur costs to obtain annual
certifications from religious employers that wish to
exclude coverage for medically necessary abortions
and to issue riders to each certificate holder at no
premium to be charged to the certificate holder or
religious employer under policies and contracts issued
to such religious employers.
However, these
additional costs should be minimal.
This amendment is unlikely to impose compliance
costs on the Department of Financial Services
(“Department”). Any costs to the Department should
be minimal and the Department expects to absorb the
costs in its ordinary budget.
This amendment will not impose compliance costs
on state or local governments
5. Local government mandates: This regulation
does impose a new mandate on any county, city, town,
village, school district, fire district or other special
district.
6. Paperwork:
Insurers may need to obtain
annual certifications from religious employers that
wish to exclude coverage for medically necessary
abortions and issue riders that provide coverage for
medically necessary abortions at no additional
premium to each certificate holder of a policy issued to
such a religious employer.
7. Duplication:
This amendment does not
duplicate, overlap, or conflict with any existing state
or federal rules or other legal requirements.

77a
8. Alternatives:
The Department considered
using a different definition of “qualified religious
organization employer” but decided to use the current
definition because it is more analogous to the
definition in federal regulations.
9. Federal standards: The regulation does not
exceed any minimum standards of the federal
government for the same or similar subject areas.
10. Compliance schedule: The regulation will take
effect 60 days after publication of the Notice of
Adoption in the State Register.

78a

APPENDIX K
STATE OF NEW YORK
SUPREME COURT
COUNTY OF ALBANY
THE ROMAN CATHOLIC
DIOCESE OF ALBANY,
NEW YORK; THE ROMAN
CATHOLIC DIOCESE OF
OGDENSBURG; TRUSTEES
OF THE DIOCESE OF
VERIFIED
ALBANY; SISTERHOOD OF
COMPLAINT
ST. MARY; CATHOLIC
FOR
CHARITIES, DIOCESE OF
DECLARATORY
BROOKLYN; CATHOLIC
AND
CHARITIES OF THE
INJUNCTIVE
DIOCESE OF ALBANY;
RELIEF
CATHOLIC CHARITIES OF
THE DIOCESE OF
Index No. 07536-17
OGDENSBURG; ST.
GREGORY THE GREAT
ROMAN CATHOLIC
CHURCH SOCIETY OF
AMHERST, N.Y.; FIRST
BIBLE BAPTIST CHURCH;
OUR SAVIOR’S LUTHERAN
CHURCH, ALBANY, N.Y.;
RECEIVED
TERESIAN HOUSE
2017 NOV 21
NURSING HOME
PM 2:06
COMPANY, INC.; RENÉE
ALBANY COUNTY
MORGIEWICZ; TERESIAN
CLERK
HOUSE HOUSING

79a
CORPORATION; DEPAUL
MANAGEMENT
CORPORATION; AND
MURNANE BUILDING
CONTRACTORS, INC.;
Plaintiffs,
--against-MARIA T. VULLO,
SUPERINTENDENT, NEW
YORK STATE
DEPARTMENT OF
FINANCIAL SERVICES;
AND NEW YORK STATE
DEPARTMENT OF
FINANCIAL SERVICES;
Defendants.
Plaintiffs, by and through their attorneys, Tobin
and Dempf LLP, for their Verified Complaint,
respectfully state the following:
PRELIMINARY STATEMENT
1. The State has now approved and promulgated
Abortion Mandates in the form of regulations that
force church institutions, employers and individuals,
in violation of their religious doctrines, teachings and
conscience rights, to fund and otherwise provide for
that which in their own workplace they hold and teach
to be gravely immoral. These Regulatory Abortion
Mandates, under color of law, constitute an invidious
and coercive governmental infringement on the
religious freedom and liberty of conscience rights of
religious institutions, employers and individuals, and,

80a
if unchecked, will then result in even further
dangerous incursions on religious freedom and liberty
of conscience.
2. In this action for declaratory and injunctive
relief Plaintiffs challenge, as violations of the New
York State Constitution, statutes and the United
States Constitution, the Regulatory Abortion
Mandates of the New York State Department of
Financial Services (NYSDFS) which impermissibly
and unreasonably burden the religious freedom and
liberty of conscience of churches, their institutions,
individuals and employers to freely organize, associate
or not organize or associate, express and govern
themselves consistent with their religious, moral and
conscience convictions. N.Y. Const. art. 1, § 3 (Free
Exercise, Enjoyment of Religion and Liberty of
Conscience); § 3 (Establishment Clause); § 3
(Preference Clause); § 8 (Free Speech); § 9
(Associational Liberty); art. III, § 1 (Separation of
Powers); art. IV, § 8 and State Administrative
Procedure Act §§ 202(1)(a), 205 (Rule Making); N.Y.
Exec. Law § 296(11) (Human Rights Law); N.Y. Rel.
Corp. Law § 5; U.S. Const. amend. 1 (Establishment
Clause); 1 (Free Exercise of Religion); 1 (Free Speech
and Association); 14 (Equal Protection); 1 (Hybrid
Rights: (1) Free Exercise Clause with Free Speech; (2)
Free Exercise Clause with Expressive Association and
Associational Rights; (3) Free Exercise Clause with
Equal Protection Clause; (4) Free Exercise Clause
with Establishment Clause; (5) Free Speech with
Expressive Association and Associational Rights; (6)
Free Speech with Equal Protection Clause; (7) Free
Speech with Establishment Clause; (8) Expressive
Association and Associational Rights with Equal

81a
Protection Clause; (9) Expressive Association and
Associational Rights with Establishment Clause; and
(10) Equal Protection Clause with Establishment
Clause).
JURISDICTION AND VENUE
3. Jurisdiction is conferred on this Court by the
N.Y. Const. art. 6, § 6; N.Y. Jud. Law § 140-b and N.Y.
Civ. Prac. L. & R. § 301. Venue is proper in this county
pursuant to N.Y. Civ. Prac. L. & R. §§ 503(a) and
505(a).
PARTIES
Plaintiffs
4. The Roman Catholic Diocese of Albany, New
York (“Diocese of Albany”) a special act corporation
incorporated under the Laws of the State of New York,
is and at all times has been a constituent part of the
Roman Catholic Church and is subject to the
Catechism, Canon Law and precepts of the Roman
Catholic Church. Pursuant to same, the Diocese of
Albany exercises ecclesiastical authority over its
religious, charitable and educational ministries,
institutions and parishes within fourteen counties of
upstate New York. The Diocese of Albany maintains
its principal administrative office in the City and
County of Albany. The Diocese of Albany is a religious
employer whose health insurance benefits for its
employees are regulated by the NYSDFS.
5. The Roman Catholic Diocese of Ogdensburg
(“Diocese of Ogdensburg”) a special act corporation
incorporated under the Laws of the State of New York,
is and at all times has been a constituent part of the
Roman Catholic Church and is subject to the
Catechism, Canon Law, doctrines, teachings and

82a
precepts of the Roman Catholic Church. Pursuant to
the same, the Diocese of Ogdensburg exercises
ecclesial authority over the religious, charitable and
educational ministries, institutions and parishes
within eight counties in northern New York State.
The Diocese of Ogdensburg maintains its principal
administrative office in Ogdensburg, New York. The
Diocese of Ogdensburg is a religious employer whose
health insurance benefits for its employees are
regulated by the NYSDFS.
6. Trustees of The Diocese of Albany (“Episcopal
Diocese”), a special act corporation incorporated under
the laws of the State of New York is and at all times
has been a constituent part of the Protestant
Episcopal Church in the United States (“Episcopal
Church”), and is subject to and accedes to the
Constitution, Canons and General Convention of the
Episcopal Church. Pursuant to same and its own
Constitution and Canons, the Episcopal Diocese
exercises ecclesial authority over missions, aided
parishes and parishes.
The Episcopal Diocese
maintains its principal offices within the Counties of
Albany and Washington. The Episcopal Diocese is a
religious employer whose health insurance benefits for
its employees are regulated by the NYSDFS.
7. The Sisterhood of St. Mary (“Sisters of St.
Mary”) an Anglican/Episcopal Order of women
religious established in 1865 as a New York not-forprofit religious corporation, is and at times has been a
constituent part of the Protestant Episcopal Church in
the United States and is subject to and accedes to the
Constitution, Canons and General Convention of the
Episcopal Church. Pursuant to same, its members live
a traditional, contemplative expression of monastic

83a
life through a disciplined life of prayer set within a
simple agrarian lifestyle and active ministries in their
local communities. The Sisters of St. Mary maintain
their principal convent in Washington County. The
Sisters of St. Mary is a religious employer whose
health insurance benefits for its employees are
regulated by the NYSDFS.
8. Catholic Charities, Diocese of Brooklyn
(“Charities Brooklyn”) is a not-for-profit corporation
established by special act of the New York State
Legislature.
Charities Brooklyn is operated in
connection with the Roman Catholic Diocese of
Brooklyn and is a vital and integral part of the human
services ministry of the Roman Catholic Church.
Charities Brooklyn, one of the largest multi-service
agencies in the nation, provides human services
programs covering the whole span of an individual’s
life including early childhood and family services as
part of the charitable and social justice ministry of the
Roman Catholic Church in Brooklyn and Queens
Counties. It maintains its principal administrative
office in Brooklyn.
Charities Brooklyn’s health
insurance benefits for its employees are regulated by
the NYSDFS.
9. Catholic Charities of the Diocese of Albany
(“Charities Albany”) is a not-for-profit corporation
established by special act of the New York State
Legislature.
Charities Albany is operated in
connection with The Roman Catholic Diocese of
Albany, New York and represents the human services
ministry of the Roman Catholic Church. Among its
various human service programs and agencies it
operates is Community Maternity Services, which
offers a continuum of care for pregnant adolescents

84a
and young parents including case management, goaldirected counseling, childbirth education, parent
education, support and advocacy. Charities Albany is
the means for facilitating the charitable and social
justice missions of the Roman Catholic Church in
fourteen counties in central and upstate New York.
The work of Plaintiff Charities Albany is a vital and
integral part of the human services ministry of the
Roman Catholic Church. Catholic Charities of Albany
maintains its principal administrative office in the
City and County of Albany, State of New York.
Charities Albany’s health insurance benefits for its
employees are regulated by the NYSDFS.
10. Catholic Charities of the Diocese of Ogdensburg
(“Charities
Ogdensburg”)
is
a
not-for-profit
corporation established by special act of the New York
State Legislature. Charities Ogdensburg is operated
in connection with the Roman Catholic Diocese of
Ogdensburg and is a vital and integral part of the
human services ministry of the Roman Catholic
Church. Charities Ogdensburg provides multiple
human service programs including adoptions,
maternity services and Project Rachel which provides
services to individuals and families who have been
involved in abortion. Charities Ogdensburg is the
means for facilitating the charitable and social justice
missions of the Roman Catholic Church in eight
counties in northern New York State. Charities
Ogdensburg maintains its principal administrative
office in the Town of Oswegatchie, County of St.
Lawrence. Charities Ogdensburg’s health insurance
benefits for its employees are regulated by the
NYSDFS.

85a
11. St. Gregory the Great Roman Catholic Church
Society of Amherst, N.Y. (“St. Gregory”) is a religious
corporation duly organized and existing under the
New York Religious Corporations Law. It serves as a
parish of the Roman Catholic Diocese of Buffalo,
maintains its principal place of worship in
Williamsville, Town of Amherst, County of Erie and
operates St. Gregory’s School and several ministries.
St. Gregory is a religious employer whose health
insurance benefits for its employees are regulated by
the NYSDFS.
12. First Bible Baptist Church (“First Bible”) is a
religious corporation duly organized and existing
under the laws of the State of New York. First Bible
is an independent Evangelical congregation affiliated
with the Baptist Bible Fellowship International. First
Bible engages in human services outreach with
multiple ministries including youth ministry, adult
ministry, deaf ministry, education ministry, athletic
activities, day care and pre-school and mission
ministry. First Bible maintains its principal place of
worship in the City of Rochester, County of Monroe.
First Bible is a religious employer whose health
insurance benefits for its employees are regulated by
the NYSDFS.
13. Our Savior’s Lutheran Church, Albany, N.Y.
(“Our Savior’s Lutheran Church”) is a religious
corporation duly organized and existing under the
New York Religious Corporations Law. It sponsors
several ministries and missions and maintains its
principal place of worship in the Town of Colonie,
County of Albany. Our Savior’s Lutheran Church is a
religious employer whose health insurance benefits for
its employees are regulated by the NYSDFS.

86a
14. Teresian House Nursing Home Company, Inc.
(“Teresian House”) is a not-for-profit corporation
organized and existing under the laws of the State of
New York. Teresian House provides the elderly with
a continuum of services to enhance their physical,
spiritual and emotional well-being. Teresian House is
sponsored by and affiliated with the Roman Catholic
Diocese of Albany and operated by the religious order
known as the Carmelite Sisters for the Aged and
Infirm.
Teresian House maintains its principal
service center in the City and County of Albany.
Teresian House is a religiously-affiliated employer
whose health insurance benefits for its employees are
regulated by the NYSDFS.
15. Renée Morgiewicz is a resident of Saratoga
County. She is an employee of a religious employer,
The Roman Catholic Diocese of Albany, which
provides her with health insurance benefits are
regulated by the NYSDFS and holds the similar beliefs
of the Plaintiffs.
16. Teresian House Housing Corporation is a notfor-profit corporation organized and existing under the
laws of the State of New York and operates the
retirement community known as Avila (“Avila”). Avila
is sponsored by and affiliated with the Roman Catholic
Diocese of Albany. Avila maintains its principal office
in the City and County of Albany. Avila is a
religiously-affiliated employer whose health insurance
benefits for its employees are regulated by the
NYSDFS.
17. DePaul Management Corporation is a not-forprofit corporation organized and existing under the
laws of the State of New York (“DePaul”). DePaul

87a
manages senior living apartment communities
including, Bishop Broderick Apartments, Cabrini
Acres Senior Apartments, Carondelet Commons
Senior Apartments, Fontbonne Manor Senior
Apartments, Marie-Rose Manor, Sanderson Court
Senior Apartments, St. Vincent’s Apartments, Delhi
Senior
Community,
Branson
Manor
Senior
Apartments, St. Jude Senior Apartments, Bishop
Hubbard Senior Apartments, Father Leo O’Brien
Senior Community, The Lawrence Commons and
Franciscan Heights Senior Community. DePaul is
sponsored by and affiliated with The Roman Catholic
Diocese of Albany. DePaul maintains its principal
office in the City of Albany and operates in Albany,
Delaware, Rensselaer, Saratoga and Schenectady
Counties. DePaul is a religiously-affiliated employer
whose health insurance benefits for its employees are
regulated by the NYSDFS.
18. Murnane Building Contractors, Inc. (“Murnane
Contractors”) is a business corporation organized and
existing under the laws of the State of New York.
Murnane Contractors provides general construction,
construction management and design/build services
on public and nonpublic projects throughout New York
State. Murnane Contractors maintains its principal
business office in Plattsburgh, New York. Murnane is
an employer whose health insurance benefits for its
employees are regulated by the NYSDFS. The owner
of Murnane Contractors holds fundamental religious
and conscience beliefs similar to those of the coPlaintiffs.

88a
Defendants
19. Maria T. Vullo is the superintendent and chief
executive and administrative officer of the New York
State Department of Financial Services (NYSDFS)
and is sued in her official capacity. Superintendent
Vullo has the responsibility for the adoption,
implementation and regulation of the programs,
practices, directives and contracts involving health
insurance policies and health insurers operating in
New York State. Defendant Vullo is responsible for
issuing, implementing and enforcing regulations and
directives regarding health insurance contracts
submitted by health insurers authorized to conduct
business in New York State. Defendant Vullo’s
principal office and that of the New York State
Department of Financial Services is in the City and
County of Albany, State of New York.
20. The New York State Department of Financial
Services is an executive agency of the State of New
York (“NYSDFS”). The NYSDFS is the successor
agency of the New York State Insurance Department
and the New York State Banking Department. The
NYSDFS regulates health insurance providers and
health insurance benefit plan contracts issued in New
York State.
THE MODEL ABORTION
MANDATES AT ISSUE
21. Group and blanket health policies delivered or
issued for delivery in New York State providing major
medical or similar comprehensive-type coverage are
regulated as to form and content by the NYSDFS (N.Y.
Ins. Law §3221).

89a
22. Health Insurance providers, including health
service corporations and medical service expense
indemnity corporations, are regulated by the NYSDFS
with regard to policy coverages, language and benefits.
(N.Y. Ins. Law §4303)
23. Previously health insurers providing group
health insurance plan benefits were permitted to
make discretionary decisions to issue riders to
employers removing coverage for abortion benefits for
employees.
24. The efforts of NYSDFS as well as its
predecessor, Department of Insurance, to include
abortion coverage in group health and benefit plan
contracts have a history inextricably intertwined with
an ongoing struggle, over the religious freedom and
liberty of conscience rights of religious and religiouslyaffiliated employers, other employers and individuals
whose conscience rights and sincerely held religious
beliefs, proscribe involvement in, facilitation of or
support for abortion.
25. In August, 2017, the NYSDFS finalized
Abortion Mandates in the form of regulations
requiring employers offering health insurance benefits
to affirmatively include in their plan contracts
coverage of abortions.

90a
NEW YORK STATE
DEPARTMENT OF FINANCIAL SERVICES
FORTY-EIGHTH AMENDMENT TO
11 NYCRR 52
(INSURANCE REGULATION 62)
MINIMUM STANDARDS FOR FORM,
CONTENT AND SALE OF HEALTH
INSURANCE, INCLUDING STANDARDS OF
FULL AND FAIR DISCLOSURE
Subdivision 52.1(p) is added as follows:
(p)(1) Subject to certain limited exceptions,
Insurance Law section 3217 and regulations
promulgated thereunder (section 52.16(c) of this Part)
have long prohibited health insurance policies from
limiting or excluding coverage based on type of illness,
accident, treatment or medical condition. None of the
exceptions apply to medically necessary abortions. As
a result, insurance policies that provide hospital,
surgical, or medical expense coverage are required to
include coverage for abortions that are medically
necessary.
(2) Section 52.16(o) of this part makes explicit that
group and blanket insurance policies that provide
hospital, surgical, or medical expense coverage
delivered or issued for delivery in this State shall not
exclude coverage for medically necessary abortions.
Section 52.16(o) of this Part also provides for an
optional, limited exemption for religious employers as
provided in that section while ensuring that coverage
is maintained for any insured seeking a medically
necessary abortion.
NYSDFS Forty-Eighth Amendment to 11 NYCRR 52.
Copy annexed as Exhibit “A.”

91a
26. NYSDFS on September 5, 2017, issued an
Abortion Mandate in the form of “Model Language,”
requiring employers offering health insurance
benefits, to include in their renewal contracts,
coverage of “medically necessary abortions” and the
availability of coverage for “elective abortions.”
SECTION IX
Outpatient and Professional Services
{Drafting Note: Section IX is required for individual
and small group coverage. Paragraphs F, G, H (if
applicable), J, K, O, S, U(1), U(2), V and X are
required for large group coverage. The remaining
paragraphs are optional, although recommended if
applicable, for large group coverage.}
[[M.] Interruption of Pregnancy.
We Cover medically necessary abortions including
abortions in cases of rape, incest or fetal malformation.
[We Cover elective abortions [for one (1) procedure per
Member, per [calendar year; Plan Year].]]
{Drafting Note: For groups that meet the religious
employer definition in Sections 3221(l)(16)(A)(1) and
4303(cc)(1)(A) of the insurance Law, coverage for
medically necessary abortions may be removed from
the group certificate; contract; policy but must be
provided by the health plan by rider, at no cost, to
employees of the religious employer. With respect to
elective abortions, plans must include the one
procedure limit for the standard NYSOH plan and
may provide coverage that is more favorable for nonstandard NYSOH plans and plans offered outside the

92a
NYSOH. Coverage for elective abortions may be
removed for any individual or group policy.}
NYSDFS Model Language Section IX [M] (September
5, 2017). Copy annexed as Exhibit “B.”
27. NYSDFS in August 2017, promulgated its
“Forty-Seventh Amendment to 11 NYCRR 52
(Insurance Regulation 62)” mandating “coverage of
contraceptive items or services,” which would include
abortifacients, based on “medical necessity.” Copy
annexed as Exhibit “C.”
28. NYSDFS in 2017 promulgated its “Forty-Ninth
Amendment to 11 NYCRR 52 (Insurance Regulation
62)” mandating coverage of “abortion services.” Copy
annexed as Exhibit “D.”
29. The Regulatory Abortion Mandates are not
based on legislative policy enactment.
30. The Regulatory Abortion Mandates represent
executive public policy enactments.
31. The Regulatory Abortion Mandates are internal
NYSDFS policy directives.
32. The Regulatory Abortion Mandates avoided
legislative oversight and deprived those affected with
an opportunity to be heard because they were made by
appointed, not elected, officials.
33. The Regulatory Abortion Mandates directly
coerce religious employers, religiously-affiliated
employers, objecting employers and individuals to
fund, provide and cooperate with the religiously
violative and morally offensive procedures of

93a
therapeutic
abortions1
and
non-therapeutic
2
abortions . Plaintiffs, over protest, are required to
currently fund the Regulatory Abortion Mandates in
their health care plans through their premiums and
co-pays imposed.
34. NYSDFS mandates abortion coverage for
therapeutic abortions by employers, irrespective of
number of employees, under the service category of
“medically necessary” surgery which is undefined.
35. The Regulatory Abortion Mandate, represented
by the “Forty-Eighth Amendment, Exhibit “A”,
contains an unconstitutional “optional, limited
exemption” for “Religious employers.”
36. The penultimate version of the NYSDFS
Regulatory Abortion Mandate represented by the
“Forty-Eighth Amendment “contained two additional
exemptions for “qualified religious organization
employer” and “closely held for-profit entity.” Copy
annexed as Exhibit “E.”
37. The Regulatory Abortion Mandates are
encrypted in under the rubric of “medically necessary”
surgery by NYSDFS.
38. Plaintiffs were caught unawares during the
previous renewal/enrollment period, when upon
objecting to earlier NYSDFS Model Language
Abortion Mandates, they were informed that they had
been separately covering abortions under the never
1

Abortion induced because of the mother’s physical or mental
health, or to prevent the birth of a deformed child or a child
conceived as a result of rape or incest. Stedman’s Medical
Dictionary. (2002 ed.)

2

An abortion not required for medical reasons.

94a
disclosed service category of “medically necessary”
surgery.
39. Such Undisclosed NYSDFS Abortion Mandate
was issued, implemented and contractually imposed
by NYSDFS without the knowledge or assent of
Plaintiffs or other employers similarly situated.
40. The imposition of the previous NYSDFS
Undisclosed Abortion Mandate, without any prior
public or contractual notice, resulted in Plaintiffs
unwittingly and currently providing for the funding of
objectionable abortion coverage by the payment of
premiums and co-pays, contrary to their sincerely held
moral and religious beliefs against such practices.
Plaintiffs then commenced an action for declaratory
and injunctive relief challenging the unconstitutional
imposition of the NYSDFS Model Language and
Undisclosed Abortion Mandates. The Roman Catholic
Diocese of Albany, New York, et al. v. Vullo et al.
Albany County Supreme Court, Index No. 02070-16;
RJI No. 01-1219-16 (Hon. Richard J. McNally, Jr.).
OBJECTION TO ABORTION
FUNDING AND COVERAGE
41. Plaintiffs, on moral, ethical, conscience and
religious grounds, have protested the inclusion of
coverage and funding of all abortions and have
demanded complete exemption for all abortion
procedures in their health insurance plan contracts.
42. NYSDFS and the relevant health insurance
providers have failed to provide Plaintiffs the
requested exemption.

95a
THE IMPACT OF THE ABORTION MANDATES
43. The Roman Catholic Church explicitly teaches
that abortion is a “moral evil.”3 This teaching of the
Roman Catholic religion is neither subordinate nor
secondary. Rather, it is a fundamental instruction
that is central to the Church’s tenets on respect for the
dignity of each member of the human family
regardless of age, condition or stage of development.
It is crucial to the life-affirming message of the
Catholic Church.
44. The Roman Catholic Church also explicitly
teaches that “[h]uman life must be respected and
protected absolutely from the moment of conception”
and that abortion is “gravely contrary to the moral
law”4 and an “unspeakable crime.”5 “From the time
that the ovum is fertilized, a life is begun which is
neither that of the father nor the mother. It is rather
the life of a new human being with his own growth. It
would never be made human if it were not human
already. This has always been clear, and . . . modern
genetic science offers clear confirmation. It has
demonstrated that from the first instant there is
established the program of what this living being will

3

The Catechism of the Catholic Church, copyright 1997, # 2271;
Humana Vitae, July 25, 1968 by Pope Paul VI; and Familiaris
Consortio, November 22, 1981 by Pope John Paul II.
4

The Catechism of the Catholic Church, copyright 1997, # 2270,
2271.
5

Pastoral Constitution on the Church in the Modern World
Gaudium et Spes, 51: “Abortus necnon infanticidium nefanda
sunt crimina.”

96a
be: a person, this individual person with his
characteristic aspects already well determined.”6
45. The Episcopal Church teaches and affirms that
the dignity of life must be protected from conception to
natural death.7
46. Baptist and Lutheran Churches explicitly teach
that abortion is contrary to moral law and the
Scriptures and violates those religious beliefs deeply
rooted in the Scriptures.8
47. Abortion is in direct conflict with the central
and explicit teachings of the Catholic, Episcopal and
Evangelical faiths of the Plaintiffs. For example it is
fundamental that deliberately cooperating (i.e.,
facilitating or otherwise participating in some
meaningful way) in the provision of direct abortion
constitutes a grave moral offense under Catholic
teaching. In a word, no faithful Catholic person can,
without violating a fundamental tenet of the Catholic
religion, ever participate in, facilitate, or otherwise
cooperate with the intentional killing of an unborn
child. To do so, Catholics believe, violates God’s
creative plan for humanity and is contrary to the
inherent dignity and sanctity of every human life.
Therefore, the Church formally teaches that it is
always objectively evil to engage in the direct and
6

Congregation of the Doctrine of Faith, Declaration on Procured
Abortion (18 November 1974), NOS. 12–13: AAS 66 (1974), 738.

7

Episcopal Diocese 2007 Annual Convention Resolution 4.
“Resolved, that the 2007 Convention of the Diocese of Albany
affirms the sanctity of human life as a gift of God from conception
to natural death.”

8

Jeremiah 1:4; Luke 1:39.

97a
intentional killing of unborn human life or any other
innocent human life. Direct abortion is clearly and
unequivocally immoral and unacceptable in every
circumstance. Plaintiffs will not, and cannot, accept
or facilitate it in any way. Yet Plaintiffs have been
coercively and unwillingly made part of said evil
through the Abortion Mandates represented and
actualized
by
the
aforementioned
NYSDFS
regulations.
48. Plaintiffs and other religions also teach that an
employer has a moral obligation at all times to
consider the well-being of its employees and to offer
just wages and benefits in order to provide a dignified
livelihood for the employee and his or her family. In
accordance with religious teaching, religious
employers view the offering of fair, adequate and just
employment benefits as a moral obligation rooted in
the Gospel of Jesus Christ. The scope and range of
these benefits, however, must also be consistent with
religious and moral teaching on the dignity and
sanctity of each member of the human family.
49. As a result of the clear and unequivocal
religious and moral teaching against abortion, the
notion of a church institution providing its employees,
regardless of their particular religious affiliation, with
health insurance coverage for abortion, is morally
unacceptable as a matter of religious teaching and
moral conviction. To provide such insurance coverage
to the employees of church organizations and agencies
would provide the occasion for “grave sin,” which the
Roman Catholic Church and other religions cannot
religiously or morally accept or sanction.
The
NYSDFS Regulatory Abortion Mandates constitute a
direct and an unreasonable interference with the

98a
exercise of religion by Plaintiffs, who therefore
warrant a complete exemption from same.
50. The NYSDFS Regulatory Abortion Mandates
were promulgated with the explicit intention of
exempting some employers, while, at the same time,
excluding other employers from the exemption.
51. Plaintiffs, having no alternative, are enrolled in
health care plans that cover direct abortion for all plan
participants. As a result, Plaintiffs have been coerced
into paying premiums for such coverage, all the while
lacking any actual or constructive notice of such
finding. Plaintiffs, given their moral and religious
objections to the practice of direct abortion, are being
coerced to pay premiums to fund the direct abortion of
the unborn children of plan participants.
This
situation is morally, ethically, and religiously
unacceptable to Plaintiffs as it substantially burdens
and unreasonably interferes with their religious and
conscience rights.
52. Plaintiffs believe that health care is a right, not
a privilege, of all persons. The provision of health care
coverage by Plaintiffs must, however, comport with
their moral teachings, especially on the right to life of
all human beings which is itself the foundation for a
right to health care. In this case, their own health care
plans do not so comport and their inability to change
this is a direct result of NYSDFS’s unlawful
Regulatory Abortion Mandates. These regulatory
mandates have deprived them, along with millions of
other New Yorkers who have moral, conscience and/or
religious objections to abortions, of the ability to
purchase or provide health care plans that do not
violate their own sincerely held, fundamentally

99a
important moral, religious and conscience beliefs.
Simply stated, the Plaintiffs cannot, in conscience,
fund direct abortions through their own health plan’s
insurance premiums.
53. In approving and promulgating the Regulatory
Abortion Mandates, and unlawfully usurping the
authority of the New York State Legislature, NYSDFS
denied the Plaintiffs, along with millions of other New
Yorkers who have moral, religious or conscience
objections to abortion, their right as citizens to
comment publicly on the merits of the Abortion
Mandates
before
the
Legislature,
thereby
circumventing
constitutional
and
statutory
exemptions or accommodations for citizens who have
deeply held moral or religious objections to paying for
coverage of abortion.
54. Plaintiffs’ group health plans come up for
renewal in December 2017, and thereafter.
UNLAWFUL ABORTION MANDATES
55. The NYSDFS Regulatory Abortion Mandates
violate the Hyde/Weldon Conscience Protection
Amendment, which protects physicians, nurses,
hospitals, health insurance companies, health
insurance plans or any other kind of health care
facility, organization, or plan from being forced by
state governments receiving federal health funds to
perform, pay for, provide coverage of, or refer for
abortions. Consolidated Appropriations Act, 2016,
Pub. L. No. 114-113, Div. H. tit. V, § 507(d) (Dec. 18,
2015). The Weldon Amendment provides that states
receiving federal funds may not discriminate against
health plans based on their decision not to cover or pay
for abortions.

100a
56. The NYSDFS Regulatory Abortion Mandates
violate the New York State Constitution protections of
religious liberty and constitute an unlawful
usurpation of legislative power by an administrative
agency in violation of the separation of powers
doctrine.
DECLARATORY AND INJUNCTIVE RELIEF
57. The Regulatory Abortion Mandates imposed on
Plaintiffs through their health plans are enforceable
against their health insurance providers by the
Defendant Maria T. Vullo, in her capacity of
superintendent of the New York State Department of
Financial Services.
58. If this Court were to enjoin the enforcement of
coverage and funding of the Regulatory Abortion
Mandates declare the Abortion Mandates, including
their coverage and funding to be unconstitutional,
Plaintiffs’ health insurers could provide Plaintiffs with
group health benefit plans that offer Plaintiffs and
their employees benefits consistent with the teachings
of their church and in compliance with Plaintiffs’
moral, conscience and religious convictions.
59. Defendants have no compelling interest in
unilaterally mandating abortion insurance coverage
and funding for the employees of religious employers,
religiously-affiliated employers, other employers and
individual employees that outweigh Plaintiffs’
constitutional and conscience rights.
60. Because the NYSDFS deemed it necessary to
include an optional, limited exemption from the Model
Language Abortion Mandates, NYSDFS already has
determined that the interests advanced by the
Regulatory Abortion Mandates are not so compelling

101a
or of such a high order or that the means used are not
the least restrictive that they cannot yield to
accommodate conflicting interests or rights.
Moreover, it is beyond question that an
accommodation is possible and readily accomplished
and extended to similarly situated employers, i.e.
others are being accommodated by the laws and
regulations, as evidenced by the penultimate version
of the NYSDFS “Forty-Eight Amendment.”
See
Exhibit “E.”
61. The regulatory Abortion Mandates are not
narrowly tailored to advance any compelling
governmental interest insofar as they were drafted to
intentionally coerce certain religious organizations
and employers, including, specifically, religious
organizations with health care and human service
agencies, to fund and provide coverage of abortion
services to their employees.
62. Plaintiffs have sustained and continue to
sustain actual harm and injury by funding the
NYSDFS Regulatory Abortion Mandates through
premiums and co-pays.
An actual, present
controversy has arisen regarding whether the
approval, promulgation, implementation, enforcement
and funding of the Regulatory Abortion Mandates are
unconstitutional and violate Plaintiffs’ constitutional
and statutory rights.
63. This actual and present controversy is properly
the subject of declaratory relief insofar as Plaintiffs
seek a declaration of their rights, and the
constitutional and statutory invalidity of the
NYSDFS’s Regulatory Abortion Mandates, and the
coerced funding of same. If the NYSDFS’s Regulatory

102a
Abortion Mandates are adjudged to violate the
provisions of the New York Constitution, New York
statutes or the United States Constitution or statutes,
Plaintiffs will be permitted to renew and continue
their existing group health benefits plans in the
present form which do not include abortion insurance
coverage, as such coverage is contrary to Plaintiffs’
sincerely held religious beliefs as well as moral and
conscience objections.
64. Plaintiffs seek entry of a judgment, pursuant to
Civil Practice Law and Rule §3001, declaring that the
NYSDFS Regulatory Abortion Mandate and the Model
Language Abortion Mandate covering and funding
“therapeutic” and “non-therapeutic” abortions, under
the service category “medically necessary” surgery,
and the pertinent abortion coverage and funding
provisions included in the health insurance contracts
approved and issued by Defendants dealing with
coerced abortion coverage and funding, violate the
New York Constitution, New York statutes and the
United States Constitution, and are thus inoperative.

103a
CAUSES OF ACTION
FIRST CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES
UNDER THE NEW YORK
STATE CONSTITUTION
FREE EXERCISE, ENJOYMENT OF RELIGION
& LIBERTY OF CONSCIENCE GUARANTEES
(NEW YORK CONSTITUTION,
ARTICLE 1, SECTION 3)
65. Plaintiffs repeat and reallege paragraphs “1”
through “64” of the verified complaint and incorporate
same herein as though more fully set forth.
66. The NYSDFS Regulatory Abortion Mandates
and Model Language, Sec. IX [M], those portions of
health insurance contracts covering abortions under
the service category of “medically necessary” surgery,
impose a severe, direct and substantial burden, and
have unreasonably interfered with an infringed upon
Plaintiffs’ guaranteed right to the free exercise and
enjoyment of religion and liberty of conscience, under
Article I, Section 3 of the New York Constitution.
67. Mandating that Plaintiffs and objecting
employers provide their employees with funded
abortion coverage is in violation of their sincerely held
religious, moral, and conscience beliefs, which are
integral to the mission of their representative church
organizations and therefore infringes upon their
guaranteed right to the free exercise and enjoyment of
religion and liberty of conscience under Article 1,
Section 3 of the New York Constitution.

104a
68. The NYSDFS Regulatory Abortion Mandates
coerce Plaintiffs into choosing between violating their
sincerely held religious beliefs regarding the moral
impermissibility of abortion and violating their
sincerely held religious and conscience beliefs
regarding the moral obligation of employers to provide
a dignified livelihood, including fair, adequate and just
employment benefits, to their employees. Neither
choice is religiously nor morally acceptable to
Plaintiffs, as either option coerces Plaintiffs into either
violating their sincerely held religious and conscience
beliefs or facing draconian financial penalties.
Consequently, the NYSDFS Regulatory Abortion
Mandates, including those portions of policies
requiring coverage of the Undisclosed Abortion
Mandate under the service category of “medically
necessary” surgery are unconstitutional and have the
coercive effect of operating against Plaintiffs in the
practice of their religion and, thus, violate their
religious freedom, enjoyment of religion, and liberty of
conscience guarantees under Article I, Section 3 of the
New York Constitution.

105a
SECOND CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES
UNDER THE NEW YORK
STATE CONSTITUTION
ESTABLISHMENT CLAUSE
(NEW YORK CONSTITUTION,
ARTICLE 1, SECTION 3)
69. Plaintiffs repeat and reallege paragraphs “1”
through “68” of verified complaint and incorporate
same herein as more fully set forth.
70. The NYSDFS Regulatory Abortion Mandates,
Model Language, Sec. IX [M], those portions of health
insurance contracts requiring coverage of abortions
under the service category of “medically necessary”
surgery, violate the Establishment Clause of Article I,
Section 3 of the New York Constitution.
71. In issuing the Regulatory Abortion Mandates
NYSDFS chose to selectively impose a substantial
burden upon particular religious employers,
religiously-affiliated organizations and individuals
while preferring other large group employers through
the grant of an optional exemption from its Model
Language.
72. NYSDFS understood that the Regulatory
Abortion Mandates would be imposed upon certain
religiously-affiliated organizations despite their wellknown religious objections to abortion, while
exempting other large group organizations only from
the Model Language Abortion Mandate.
73. Upon information and belief, NYSDFS
deliberately undertook efforts to carve up religious

106a
employers and religiously-affiliated organizations into
discrete segments. The distinctions draw by the
NYSDFS are wholly contrary to religious teachings,
which regard the latter activities of the Plaintiffs as
vital parts of their mission and ministries.
74. The principal effect of excluding some religious
employers and religiously-affiliated organizations
from the Regulatory Abortion Mandates exemption is
to selectively impose the Regulatory Abortion
Mandates on some religious organizations but not on
others. The deliberate distinctions drawn by the
optional exemption provision involving religious
organizations, and the resultant denominational
preferences that flow therefrom, violate the
Establishment Clause of Article I, Section 3 of the New
York Constitution.
75. The NYSDFS Regulatory Abortion Mandates,
Model Language, Sec. IX [M] and those portions of
health policies requiring coverage of the Abortion
Mandate under the service category of “medically
necessary” surgery are unconstitutional and impose a
severe and direct burden upon Plaintiffs’
constitutionally guaranteed rights under the
Establishment Clause of Article I, Section 3 of the New
York Constitution.

107a
THIRD CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES
UNDER THE NEW YORK
STATE CONSTITUTION
PREFERENCE CLAUSE
(NEW YORK CONSTITUTION,
ARTICLE 1, SECTION 3)
76. Plaintiffs repeat and reallege paragraphs “1”
through “75” of the verified complaint and incorporate
same herein as though more fully set forth.
77. The NYSDFS Regulatory Abortion Mandates,
Model Language, Sec. IX [M], and those portions of
health insurance contracts requiring coverage of the
Abortion Mandates under the service category of
“medically necessary” surgery, violate the Preference
Clause of Article I, Section 3 of the New York
Constitution.
78. The NYSDFS Regulatory Abortion Mandates
and their various iterations draw explicit and
deliberate distinctions between different religiouslyaffiliated organizations for the purpose of exempting
certain religious organizations, and excluding others
from exemptions.
79. The benefit conferred by the optional exemption
for certain employers constitutes an advantage while
the burden of compliance with the Regulatory
Abortion Mandates for others is not de minimis, but
rather a draconian financial penalty which, upon
information and belief, would easily run into the tens
or hundreds of millions of dollars for the Plaintiffs

108a
80. Plaintiffs’ religious freedom and liberty of
conscience have been threatened because NYSDFS
has drawn a line and associated its power with certain
religiously-affiliated organizations and religious
traditions to the deliberate exclusion of other
religiously-affiliated organizations and religious
traditions, under the Regulatory Abortion Mandates
and the inclusion of all employers under the
Undisclosed Abortion Mandate.
81. By exempting some religiously-affiliated
organizations and other employers from the
Regulatory Abortion Mandates, while coercing other
organizations to comply, the NYSDFS has bestowed a
differential benefit on some organizations and
employers. The NYSDFS has consequently granted
the exempt employers a constitutionally forbidden
“preference.”
82. The broad protections guaranteed by the
Preference Clause of Article I, Section 3 of the New
York Constitution prevents the NYSDFS from
discriminating between, or conferring any advantage
upon, particular religiously-affiliated organizations
and employers or a particular religious denomination.
Consequently, the optional exemption to the
prescription of the Abortion Mandates, set forth in
NYSDFS Model Language Sec. IX [M], and those
portions of health insurance contracts requiring
coverage of the Abortion Mandates under the service
category of “medically necessary” surgery, violate the
Preference Clause of Article I, Section 3 of the New
York Constitution.

109a
FOURTH CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES UNDER THE NEW
YORK STATE CONSTITUTION - FREE SPEECH
(NEW YORK CONSTITUTION, ARTICLE 1, §8)
83. Plaintiffs repeat and reallege paragraphs “1”
through “82” of the verified complaint and incorporate
same herein as though more fully set forth.
84. The NYSDFS Regulatory Abortion Mandates
have infringed Plaintiffs’ rights under the Free Speech
provisions of Article 1, Section 8 of the New York
Constitution.
85. Plaintiffs enjoy a guaranteed right under
Article 1, Section 8 to promote their religion-based
missional goals, purposes and conscience. Plaintiffs,
through implementation of operational policies
consistent with the religious and moral teachings on
the dignity of life and abortion, have made a powerful
statement, both symbolically and literally, through
publication of their employee policy and procedure
manuals, governance and operations regarding the
relevance and importance of their religious teachings
and traditions in conducting their activities and in the
daily lives of their employees.
Plaintiffs’
implementation of employee policies and procedures is
based upon religious and moral teachings and
traditions and constitute an important component of
Plaintiffs’ efforts to actualize their religious beliefs
and conscience principles by demonstrating a serious
and earnest commitment to the values of the Gospel
and religious teachings in the conduct of their
missional affairs and activities.

110a
86. Plaintiffs possess a concomitant right under
Article 1, Section 8 of the New York Constitution to
decline to foster concepts inimical to their beliefs and
conscience. The Abortion Mandates imposed upon
Plaintiffs by NYSDFS compel Plaintiffs and all other
affected religious and religiously-affiliated employers,
individuals and employers to foster concepts contrary
to their profoundly important and sincerely held
religious beliefs and moral convictions.
87. By requiring those Plaintiffs who support and
provide maternity services, abortion counseling and
adoption to include and fund abortion coverage and,
consequently, provide information to employees
regarding such insurance coverage, the Abortion
Mandates coerce Plaintiffs to, both symbolically and
literally, make a public statement regarding abortion
contrary to their sincerely held religious beliefs and
conscience rights and thus foster a concept wholly and
profoundly inimical to such beliefs and rights.
88. Catholic Plaintiffs, whose religious beliefs teach
that abortion is a “moral evil” and “gravely sinful” are
forced by NYSDFS Regulatory Abortion Mandates to
offer and fund abortion coverage as a “benefit of
employment.”
Episcopal, Baptist, Lutheran,
individual, and employer Plaintiffs, whose religious
and moral beliefs hold that abortion is immoral, are
forced to offer and fund same as a “benefit of
employment.” By offering access to abortion as a
“benefit” of employment, Plaintiffs are compelled to
choose between the moral requirement for providing
fair and just employment benefits, such as health care
insurance and the moral impermissibility of
facilitating access to abortion, which Plaintiffs’
religious and conscience beliefs consider immoral. The

111a
symbolic impact of a religious and religiouslyaffiliated employer offering and funding such abortion
insurance coverage to its employees is a considerable
burden and deleterious to Plaintiffs’ rights, under
Article 1, Section 8 of the New York Constitution:
rights to proclaim religious and moral teachings by
way of example in the manner in which they conduct
their own activities, and to serve as a witness to the
life-affirming message of the Gospel of Jesus Christ
and their religious traditions.
89. The NYSDFS Regulatory Abortion Mandates
force Plaintiffs to become an instrument for fostering
public adherence to a public policy promoting the
practice of abortion, a principle which Plaintiffs find
morally, religiously and profoundly unacceptable. In
doing so, the NYSDFS has invaded the sphere of
protection of the liberty of speech, which is the purpose
of Article 1, Section 8 to reserve from all official
control.
90. The Regulatory Abortion Mandates imposed
and
implemented
by
the
NYSDFS
are
unconstitutional and impose a direct and severe
burden upon Plaintiffs’ constitutionally guaranteed
right to free speech pursuant to the Free Speech
provisions of Article 1, Section 8 of the New York
Constitution.

112a
FIFTH CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES
UNDER THE NEW YORK
STATE CONSTITUTION
ASSOCIATIONAL LIBERTY
(NEW YORK CONSTITUTION, ARTICLE 1, § 9)
91. Plaintiffs repeat and reallege paragraphs “1”
through “90” of the verified complaint and incorporate
same herein as though more fully set forth.
92. The NYSDFS Regulatory Abortion Mandates
have infringed Plaintiffs’ expressive association rights
and violate Article 1, Section 9 of the New York
Constitution.
93. By requiring Plaintiffs to fund and cover
abortion and consequently provide information to
their employees regarding such insurance coverage,
the Regulatory Abortion Mandates coerce Plaintiffs to,
both symbolically and literally, make a public
statement and engage in expressive conduct regarding
abortion which is profoundly contrary to their
sincerely held religious, moral and conscience beliefs
and, thus, foster a concept wholly inimical to such
religious, moral and conscience beliefs.
94. Mandating such insurance coverage requires
Plaintiffs to speak, orally and in writing, regarding the
availability of abortion, as a benefit of employment by
Plaintiffs.
95. The NYSDFS Regulatory Abortion Mandates
force Plaintiffs, as part of their ordinary missional and
employment activities, to become part of an
association or an instrument for fostering public

113a
adherence to a public policy promoting the practice of
abortion, a principle which Plaintiffs profoundly find
morally and religiously impermissible.
The
Regulatory Abortion Mandates are unconstitutional
and violate Plaintiffs’ rights of expressive association.
SIXTH CAUSE OF ACTION
DECLARATORY RELIEF INVALIDITY OF
NYSDFS REGULATORY ABORTION
MANDATES UNDER THE NEW YORK
STATE CONSTITUTION
SEPARATION OF POWER AND RULE MAKING
(NEW YORK CONSTITUTION,
ARTICLE III, § 1, IV, § 8)
96. Plaintiffs repeat and realleges paragraphs “1”
through “95” of the verified complaint and incorporate
same herein as though more fully set forth.
97. The NYSDFS Regulatory Abortion Mandates
violate the separation of powers doctrine and rule
making provisions of Article III, § 1, and Article IV, §
8 of the New York State Constitution and § 202(1)(a)
of the State Administrative Procedure Act (“SAP A”).
Plaintiffs in compliance with SAPA § 205 timely filed
verified petition with the NYSDFS requesting the
invalidation of the Regulatory Abortion Mandates.
The NYSDFS refused to provide the relief requested.
98. The NYSDFS has historically secured health
insurance coverage and expansion through legislation
and by issuing and implementing the subject
Regulatory Abortion Mandates unlawfully usurped
the legislative powers of the New York State
Legislature,
circumvented
constitutional
and
statutory rule and regulation requirements, thereby

114a
depriving the public and Plaintiffs the opportunity
and right to be heard.
SEVENTH CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES UNDER THE NEW
YORK HUMAN RIGHTS LAW
(HUMAN RIGHTS LAW,
EXECUTIVE LAW §296(11))
99. Plaintiffs repeat and reallege paragraphs “1”
through “98” of the verified complaint and incorporate
same herein as though more fully set forth.
100. The provision by a New York employer of a
group or blanket health policy providing hospital,
surgical or medical coverage to employees constitutes
a benefit to such employees which affects the terms,
conditions or privileges of employment.
101. The Legislature by enacting the Human
Rights Law has pre-empted the area of the employeremployee relationship by previously exempting
religious employers from taking any action which
would violate their sincerely held religious beliefs
within the employer-employee relationship dealing
with the terms, conditions and privileges thereof:
Nothing contained in this section shall be
construed to bar any religious or denominational
institution or organization, or any organization
operated for charitable or educational purposes,
which is operated, supervised or controlled by or
in connection with a religious organization, from
limiting employment or sales or rental of housing
accommodations or admission to or giving
preference to persons of the same religion or

115a
denomination or from taking such action as is
calculated by such organization to promote the
religious principles for which it is established or
maintained, (N.Y. Exec. Law §296(11) (emphasis
added).
102. Plaintiffs are operated, supervised or
controlled by or in connection with a religious
organization and accordingly are qualified religious
employers.
103. The Regulatory Abortion Mandates imposed
by NYSDFS violate Plaintiffs’ sincerely held religious
beliefs, their right to religious freedom and liberty of
conscience, and the Human Rights Law.
104. Plaintiffs as religious employers enjoy a
statutory conscience right which protects them from
being coerced into providing employment benefits
consisting of abortion coverage, contrary to their
sincerely held religious and moral beliefs.

116a
EIGHTH CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES UNDER THE
RELIGIOUS CORPORATIONS LAW
(RELIGIOUS CORPORATIONS LAW §§26, 5)
105. Plaintiffs repeat and reallege paragraphs “1”
through “104” of the verified complaint and
incorporate same herein as though more fully set
forth.
106. The Legislature by enacting the Religious
Corporations Law addressed the relationship between
the law and religion by codifying an allowance of the
greatest and freest scope to the activities and practices
of religious organizations.
107. The Legislature by enacting the Religious
Corporations Law did not define religion, rather it
explicitly subordinated the statute to the “laws,
regulations, practices, disciplines, rules and usages” of
religious denominations and ecclesiastical governing
bodies.
108. The Regulatory Abortion Mandates imposed
by NYSDFS impermissibly define religion and
contravene the sphere of legal regulation of religious
organizations, by drawing distinctions between those
who received exemptions and those who did not.
109. The NYSDFS Regulatory Abortion Mandates
abrogate the statutory protections safeguarded to
religious organizations under the law in New York and
violate Plaintiffs’ sincerely held religious beliefs and
their rights to religious freedom and liberty of
conscience.

117a
NINTH CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES UNDER THE FIRST
AND FOURTEENTH AMENDMENTS TO THE
UNITED STATES CONSTITUTION ESTABLISHMENT CLAUSE
(U.S. CONSTITUTION, AMENDMENT 1)
110. Plaintiffs repeat and reallege paragraphs “1”
through “109” of the verified complaint and
incorporate same herein as though more fully set
forth.
111. The NYSDFS Regulatory Abortion Mandates
violate the Establishment Clause of the First
Amendment to the Constitution of the United States,
as applied to the states by the Fourteenth
Amendment.
112. Upon information and belief, the NYSDFS
Abortion Mandates were originally issued with the
express intention of including some religious
organizations while, at the same time, optionally
excluding other religious organizations, specifically
health care organizations, human service agencies,
schools and universities.
113. The NYSDFS has engaged in constitutionally
impermissible “religious gerrymandering,” in violation
of the First Amendment to the Constitution of the
United States, by arbitrarily granting an exemption
for some religious organizations and denying the
exemption for others.
114. The NYSDFS intended to impose the abortion
insurance coverage Regulatory Abortion Mandates
upon certain religious organizations, despite their

118a
well-known religious objection to abortion, while
exempting other religious organizations from the
Regulatory Abortion Mandates.
115. The NYSDFS undertook efforts to carve up
religious and religiously-affiliated organizations into
discrete segments. The distinctions drawn by the
NYSDFS between religious organizations engaging in
purportedly “religious activities,” based on their size
are wholly contrary to religious teaching, which
regards the activities of religious organizations, such
as the Plaintiffs, as vital and integral ministries
irrespective of the size of their employee payroll.
116. The issue as to whether the Regulatory
Abortion Mandates exemption should be optionally
extended to include specific religious organizations led
the NYSDFS to discuss the characteristics of a
particular denomination and its constituent
organizations, with a view towards “religious
gerrymandering.”
117. The NYSDFS Regulatory Abortion Mandates
are not facially neutral statutory provisions, which
coincidentally have a “disparate impact” upon
different religious organizations.
Rather, the
NYSDFS Regulatory Abortion Mandates draw explicit
and
deliberate
distinctions
among
religious
organizations for the purpose of targeting certain
religious organizations and excluding significant
numbers of other organizations from the Regulatory
Abortion Mandates as an optional exemption.
118. The NYSDFS provides the exemption
provision to distinguish between churches and
religiously-affiliated employers for purposes of
granting relief from the imposition of the Regulatory

119a
Abortion Mandates. The principal effect of excluding
some religious employers from the Regulatory
Abortion Mandates exemption is to selectively impose
the Regulatory Abortion Mandates on some religious
organizations but not on others.
119. The benefit conferred by exemption included
in the NYSDFS Regulatory Abortion Mandates may
constitute an advantage for those religious
organizations that are exempt, while imposing a
burden, which is not de minimis, on those religious
organizations, including Plaintiffs, which are not
exempt.
TENTH CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES UNDER THE FIRST
AMENDMENT TO THE UNITED STATES
CONSTITUTION-FREE EXERCISE CLAUSE
(U.S. CONSTITUTION, AMENDMENT 1)
120. Plaintiffs repeat and reallege paragraphs “1”
through “119” of the verified complaint and
incorporate same herein as though more fully set
forth.
121. NYSDFS’s decision to exclude certain
religious organizations but not others from the
Regulatory
Abortion
Mandates
demonstrates
intentional targeting of the religious beliefs of certain
religiously-affiliated organizations, regarding the
religiously-based prohibition against abortion in
violation of the Free Exercise Clause of the First
Amendment to the United States Constitution, as
applied to the states by the Fourteenth Amendment.

120a
122. Upon information and belief the purpose for
the exclusion of certain religious organizations and
employers was to infringe upon, and restrict the
practices of, said organizations’ religious freedom and
conscience rights pertaining to their offering
insurance coverage to their employees consistent with
their moral beliefs. The NYSDFS Regulatory Abortion
Mandates are not neutral and are invalid under the
Free Exercise Clause of the First Amendment to the
United States Constitution.
123. The NYSDFS Abortion Mandates impose a
direct, extraordinary, substantial and unreasonable
burden on the religious freedom and conscience rights
of the Plaintiffs.
124. Upon information and belief, the NYSDFS’s
refusal to extend the exemption to all religious
organizations, as a whole, is the product of
discriminatory intent on the part of the NYSDFS
against churches and their constituent religious
organizations including, but not limited to, the
Plaintiffs.
125. By allowing an optional exemption for certain
group employers from the Regulatory Abortion
Mandates, NYSDFS acknowledged that the State’s
interest in enforcement was not paramount in order to
advance the State’s interest.
Because NYSDFS
determined that the State’s interests must yield to
accommodate the religious beliefs of certain religious
employers, NYSDFS was required to uniformly extend
the exemption to relieve the extraordinary burden
imposed upon all religious organizations, as the
NYSDFS originally intended in the penultimate
version of the Forty-Eighth Amendment.

121a
126. The NYSDFS has engaged in constitutionally
impermissible “religious gerrymandering” in violation
of the First Amendment to the United States
Constitution, granting selective exemption to some
employers and denying the exemption for others.
127. The NYSDFS Regulatory Abortion Mandates,
which are not grounded in statute or regulation, are
not “generally applicable” or “neutral,” because
through their design, interpretation and enforcement,
they target the practices of certain religious employers
for discriminatory treatment.
ELEVENTH CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES UNDER THE FIRST
AMENDMENT TO THE UNITED STATES
CONSTITUTION-FREE SPEECH
AND ASSOCIATION
(U.S. CONSTITUTION, AMENDMENT 1)
128. Plaintiffs repeat and reallege paragraphs “1”
through “127” of the verified complaint and
incorporate same herein as though more fully set
forth.
129. The NYSDFS Regulatory Abortion Mandates
infringe Plaintiffs’ rights under the Free Speech and
Expressive Association guarantees of the First
Amendment to the United States Constitution, as
applied to the states by the Fourteenth Amendment.
130. Plaintiffs, as church institutions, employers
and individuals enjoy a First Amendment right to
evangelize and to promote their mission. Plaintiffs’
implementation of employee policies and procedures,
which reflect and are based upon religious teachings,

122a
ethics and conscience, constitute a critical component
of Plaintiffs’ constitutionally protected right to
promote their missions and operations by Plaintiffs
demonstrating their serious and earnest commitment
to living the values of the Gospel and church teachings
on morals and ethics in the conduct of Plaintiffs’
missional and employment activities. Even if some of
Plaintiffs’ employees do not share the tenets of the
organization, they have accepted its mission by
continuing in its employ.
131. By implementing employee policies consistent
with religious teachings such as the Ethical and
Religious Directives for Catholic Health Care Services,
Plaintiffs have made a powerful statement and
implementation of expressive conduct, both
symbolically and literally, through publication of their
employee policy and procedure manual materials
regarding the relevance and importance of religious
teachings in conducting their business and in the daily
lives of their employees.
132. Plaintiffs possess a concomitant right, under
the First Amendment, to decline to foster concepts
inimical to their beliefs. The Regulatory Abortion
Mandates imposed on Plaintiffs compel Plaintiffs, and
all other affected religious organizations, employers
and individuals to forcibly adopt concepts and speech
and association with those who hold views wholly
contrary to their profoundly important and sincerely
held religious and moral beliefs, thus violating the
constitutional guarantees of free speech and
expressive association.
133. By requiring Plaintiffs to provide and fund
insurance coverage for abortion and provide

123a
information to their employees regarding such
insurance coverage, the Abortion Mandates coerce
Plaintiffs to, both symbolically and literally, make a
public statement and engage in expressive conduct
regarding abortion contrary to their sincerely held
religious and moral beliefs and, thus, foster a concept
and association wholly inimical to such beliefs.
134. Catholic Plaintiffs, whose religious beliefs
teach that abortion is a “moral evil” and “gravely
sinful,” are forced to offer and fund abortion coverage
as a “benefit” of employment. Episcopal, Baptist and
Lutheran Plaintiffs, whose religious beliefs hold that
abortion is immoral, are forced to offer same as a
“benefit of employment.” The symbolic value of a
religious and religiously-affiliated employer offering
such abortion insurance coverage to their employees is
a considerable burden and deleterious to Plaintiffs’
right, under the First Amendment, to proclaim
religious and moral teachings by way of expressive
conduct including the way they actualize their own
missional activities and thus serve as living witness to
the life-affirming message of the Gospel of Jesus
Christ.
NYSDFS requires Plaintiffs to foster
associations that are contradictory to their
associational mission and message and wholly
inimical to their institutional religious and moral
beliefs.
135. Mandating such insurance coverage also
necessarily requires Plaintiffs to speak, orally and in
writing, regarding the availability of abortion as a
benefit of employment provided by Plaintiffs.
Plaintiffs must provide their employees with
information regarding available insurance coverage
and, thus, must necessarily inform those employees

124a
that they are entitled to receive insurance coverage for
abortion as a benefit of being employed by Plaintiffs.
136. The NYSDFS Regulatory Abortion Mandates
force Plaintiffs, as part of their ordinary missional and
employment activities, to become an instrument of the
State for publicly promoting the practice of abortion, a
principle which Plaintiffs profoundly find morally and
religiously impermissible. In doing so, the NYSDFS
has invaded the sphere of protection of liberty of
speech, including the right not to speak, which is a
violation of the purpose of the First Amendment to
reserve incursions from all official control.
137. The NYSDFS Regulatory Abortion Mandates
impose a direct and severe burden upon Plaintiffs’
constitutionally guaranteed right to free speech,
expressive association, and associational liberty and
violate the First Amendment to the United States
Constitution.
TWELFTH CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES UNDER THE
FOURTEENTH AMENDMENT TO THE
UNITED STATES CONSTITUTIONEQUAL PROTECTION
(U.S. CONSTITUTION, AMENDMENT 14)
138. Plaintiffs repeat and reallege paragraphs “1”
through “137” of the verified complaint and
incorporate same herein as though more fully set
forth.
139. Because the NYSDFS Regulatory Abortion
Mandates make an impermissible classification
among employers based upon the exercise of

125a
fundamental religious rights, specifically the
constitutionally protected right to free exercise of
religion and to be free of denominational preferences,
NYSDFS and their Abortion Mandates violate the
Equal Protection Clause contained in the Fourteenth
Amendment of the United States Constitution.
140. Upon
information
and
belief,
the
classifications imposed by the Model Language
Abortion Mandates exemption provision was
motivated by discriminatory animus against certain
religiously-affiliated organizations and their views on
the religious and moral impermissibility of abortion.
The basis for the distinctions drawn by the NYSDFS
Regulatory Abortion Mandates is religious not secular.
It inherently treats similarly situated individuals and
organizations differently based solely on religious
viewpoint.
141. The classification drawn by the NYSDFS
Regulatory Abortion Mandates substantially burden
Plaintiffs’ fundamental religious freedom and
conscience rights. Upon information and belief, other
similarly situated employers and individuals received
exemptions and Plaintiffs were not granted same. The
NYSDFS classification scheme is unconstitutional due
to its being entirely unilateral and facially
discriminatory against certain religious beliefs or
institutions.
142. The Regulatory Abortion Mandates optional
exemption provision impermissibly draws arbitrary
classifications among and between religious
employers. The suspect classification is based upon
specified criteria intentionally tailored to target
distinct institutions, largely religious based (i.e.

126a
similarly situated persons as Plaintiffs, who received
exemptions that were then denied to Plaintiffs).
143. Upon
information
and
belief,
the
classifications set forth in the NYSDFS Regulatory
Abortion Mandates are intentionally drawn to
specifically burden religious employers insofar as their
denominations are the only religious denomination
that operate health care facilities, universities and
human services agencies in New York on a statewide
scale and have a religious proscription against the
practice of abortion. Upon information and belief,
because certain denominations hold strong religious
views in reference to the prohibition against abortion,
their religious freedom rights are substantially
burdened by the suspect classifications built into the
Abortion Mandates’ directives.
144. Upon information and belief, the distinctions
were drawn to impact specific religious, and
denominations with strong, well-publicized religious
teachings against the use of abortion, viz., the Roman
Catholic Church, Episcopal Church, Baptist Church
and Lutheran Church. NYSDFS “gerrymandered”
certain denominations by way of separating them into
distinct segments through the use of an
unconstitutional classification scheme and thereby
imposing a severe burden upon Plaintiffs’ religious
freedom rights.

127a
THIRTEENTH CAUSE OF ACTION
DECLARATORY RELIEF
INVALIDITY OF NYSDFS REGULATORY
ABORTION MANDATES UNDER THE
FIRST AND FOURTEENTH AMENDMENTS
TO THE UNITED STATES
CONSTITUTION-HYBRID RIGHTS
(U.S. CONSTITUTION, AMENDMENT 1)
145. Plaintiffs repeat and reallege paragraphs “1”
through “144” of the verified complaint and
incorporate same herein as though more fully set
forth.
146. Plaintiffs hereby assert “hybrid rights” claims,
with respect to the NYSDFS Regulatory Abortion
Mandates dealing with abortion, based upon the
substantial infringement of Plaintiffs’ rights under the
Free Exercise Clause of the First Amendment, in
conjunction with other constitutional protections,
including, Plaintiffs’ rights under the provisions of the
First Amendment: (1) Free Speech; (2) Expressive
Association and Associational Rights; (3) Equal
Protection Clause; (4) Establishment Clause;
Plaintiffs’ rights under the Free Speech provisions of
the First Amendment in conjunction with: (5)
Expressive Association and Associational Rights; (6)
Equal Protection Clause; (7) Establishment Clause;
Plaintiffs’ rights under the Expressive Association and
Associational Rights provisions of the First
Amendment in conjunction with: (8) Equal Protection
Clause; (9) Establishment Clause; and Plaintiffs’
rights under the Equal Protection Clause in
conjunction with: (10) Establishment Clause.

128a
147. For the reasons set forth above at paragraphs
110–119, 120–127, 128–137, 138–144, Plaintiffs’
rights under the First Amendment, Free Exercise
Clause, in conjunction with the Constitutional
provisions of (1) Free Speech; (2) Expressive
Association and Associational Rights; (3) Equal
Protection Clause; and (4) the Establishment Clause
have been severally impaired, due to the effect of the
Regulatory Abortion Mandates, which places upon
Plaintiffs a substantial burden, coercing them to
decide between their religious beliefs or suffer a
draconian penalty; due to the forced association with
abortion coverage, which is an anathema to Plaintiffs,
especially considering that they have had no notice
whatsoever that they were contributing for abortions;
and in so doing, upon information and belief, has the
effect of Plaintiffs, the Churches especially, being seen
as intentionally hypocritical, by funding abortion; and
there has been no exemptions allowed for Plaintiffs,
despite the prior exemptions given out to similarly
situated individuals.
148. For the reasons set forth above at paragraphs
110–119, 120–127, 128–137, 138–144, Plaintiffs’
rights under the First Amendment, Free Speech
Clause, in conjunction with the Constitutional
protections of (5) Expressive Association and
Associational Rights; (6) Equal Protection Clause; (7)
Establishment Clause have been equally violated by
the Model Language and Regulatory Abortion
Mandates. In particular, the providing of insurance to
their employees is seen as a moral duty by religious
employers, and by providing insurance that includes
coverage for abortions forces the religious employers
to essentially speak out against abortion in the pulpit,

129a
but to condone it through health insurance coverage.
Had there been disclosure by NYSDFS or an
opportunity to obtain exemptions, these problems
would
not
exist,
but
similarly
situated
individuals/employers have been, upon information
and belief, given exemptions, whereas Plaintiffs were
not allowed the same opportunity.
149. For the reasons set forth above at paragraphs
128–137, 138–144, 110–119, Plaintiffs’ rights under
the First Amendment’s Expressive Association and
Associational Rights in conjunction with, (8) the Equal
Protection Clause; and (9) Establishment Clause, have
also been severely compromised by the Model
Language and Regulatory Abortion Mandates. For
one, the unknown years of payment for premiums,
some of which went to include abortions is inherently
a forced and unconstitutional association thrust upon
the Plaintiffs, especially considering that the First
Amendment rights of Association protect against
forced inclusion into a group (here, one that supports
abortion), which is unwanted by Plaintiffs, whose own
viewpoint (here, as abortion being a “grave” “moral”
sin) has been substantially affected by the Model
Language and Regulatory Abortion Mandates, both
which force inclusion of Plaintiffs into a group where
their viewpoint is in total opposition to the rest and if
forced to remain, would substantially effect the ability
of the Plaintiffs (religious employers/churches
especially) to advocate their own viewpoint and from
their own constitutionally protected associations.
Further harm is demonstrated by the forced exclusion
of Plaintiffs and the inclusion of similarly situated
employers or persons who, upon notice and belief,
received exemptions, and through this unlawful

130a
treatment, the including/excluding alike violates the
Establishment Clause, which prohibits the state from
inhibiting or advancing religion or otherwise
advancing
the
interest
of
certain
denominations/religious employers, while denying the
same to such similarly situated persons as Plaintiffs.
150. For the reasons set forth above at paragraphs
138–144, 110–119, Plaintiffs’ rights under the Equal
Protection Clause, in conjunction with (10) the
Establishment Clause have been similarly infringed
upon by the Model Language and Abortion Mandates.
As previously stated, the treatment of similarly
situated individuals in different ways violates the
Equal Protection Clause of the Fourteenth
Amendment, and by doing so using religious based
classifications, the Establishment Clause has equally
been violated as the State has, upon information and
belief, used the Model Language to target certain
religious groups and/or persons by refusing to provide
an exemption to Plaintiffs, while at the same time,
providing exemptions to other religious denominations
and/or similarly situated persons (to the Plaintiffs),
demonstrating a total lack of constitutionality under
the Establishment Clause, by advancing religion in
the first place and by advancing the interests of only
certain religions in the second.
151. For the reasons set forth above at paragraphs
“1” through “ 144” herein, the NYSDFS Regulatory
Abortion Mandates substantially burden Plaintiffs’
hybrid rights claims under: the United States
Constitution in the following combinations: (1) Free
Exercise Clause with Free Speech; (2) Free Exercise
Clause with Expressive Association and Associational
Rights; (3) Free Exercise Clause with the Equal

131a
Protection Clause; (4) Free Exercise Clause with the
Establishment Clause; (5) Free Speech with
Expressive Association and Associational Rights; (6)
Free Speech with the Equal Protection Clause; (7)
Free Speech with the Establishment Clause; (8)
Expressive Association and Associational Rights with
the Equal Protection Clause; (9) Expressive
Association and Associational Rights with the
Establishment Clause; and (10) Equal Protection
Clause with the Establishment Clause.
FOURTEENTH CAUSE OF ACTION
INJUNCTIVE RELIEF
INVALIDITY OF NYSDFS
ABORTION MANDATES
(CPLR §§ 6301 AND 6311)
152. Plaintiffs repeat and reallege paragraphs “1”
through “151” of the verified complaint and
incorporate same herein as more fully set forth.
153. Because of the NYSDFS Regulatory Abortion
Mandates have directly infringed upon Plaintiffs’
rights arising under the New York State Constitution,
New York Human Rights Law, Religious Corporations
Law, and State Administrative Procedures Act as
enumerated herein, Plaintiffs have been greatly and
irrevocably injured.
154. Because the issuance of NYSDFS Regulatory
Abortion Mandates have infringed upon Plaintiffs’
rights under the United States Constitution, as
enumerated herein, Plaintiffs have been greatly and
irrevocably injured.
155. Unless the Defendants are enjoined by this
Court from enforcing the Regulatory Abortion
Mandates imposed by NYSDFS, Plaintiffs will be

132a
required to subscribe to and fund group health benefit
plans that will, as a result of the aforementioned
Regulatory Abortion Mandates, include abortion
coverage.
156. Unless Defendants are enjoined by this Court
from enforcing the Regulatory Abortion Mandates
imposed by the NYSDFS, Plaintiffs’ group benefit plan
providers, have non-discretionary, regulatory duties to
include abortion insurance in Plaintiffs’ group benefit
plans as renewed.
157. Unless Defendants are preliminarily and
permanently enjoined from enforcing the Abortion
Mandates imposed by the NYSDFS, Plaintiffs will be
forced to choose between violating their sincerely held
religious and conscience beliefs regarding the moral
impermissibility of abortion and violating their
sincerely held religious beliefs regarding the moral
obligation of employers to provide a dignified
livelihood, including fair, adequate and just
employment benefits to their employees.
158. The injury to Plaintiffs, attributable to being
coerced, is that Plaintiffs must choose between
violating their sincerely held religious and conscience
beliefs regarding the moral impermissibility of
abortion and violating their sincerely held religious
beliefs regarding the moral obligations of employers to
provide a dignified livelihood, including fair, adequate
and just employment benefits, to their employees, or
face payment of draconian penalties is serious and
irrevocable.
159. Unless Defendants are preliminary and
permanently enjoined Plaintiffs’ ability to live and
engage in missional practices in accordance with their

133a
sincerely held religious and conscience beliefs will
continue to be abridged. The injury to Plaintiffs,
attributable to being coerced into engaging in
practices violative of Plaintiffs’ sincerely held religious
beliefs, is serious and irrevocable.
160. If Defendants are enjoined by this Court from
enforcing the Regulatory Abortion Mandates imposed
by NYSDFS, the Defendant providers will then
furnish Plaintiffs with group benefit health plans that
comply with their religious teaching and conscience
rights and will not include insurance coverage
covering abortion.
161. Plaintiffs have no other cognizable, adequate
or speedy remedy at law available to them.
WHEREFORE, Plaintiffs respectfully request
judgment declaring the rights and other legal
relations of the parties as follows:
1. That a judgment of this Court be entered,
pursuant to Civil Practice Law and Rules §3001, in
favor of Plaintiffs declaring that:
a. NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion coverage violate the guarantee of
the right to freely exercise and enjoy
religion and the liberty of conscience right
contained in Article 1, Section 3 of the New
York Constitution and are, accordingly,
inoperative and unenforceable as a matter
of law;

134a
b. NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion
coverage
violate
the
Establishment Clause contained in Article
1, Section 3 of the New York Constitution
and are, accordingly, inoperative and
unenforceable as a matter of law;
c.

NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion coverage violate the Preference
Clause guarantee contained in Article 1,
Section 3 of the New York Constitution and
are,
accordingly,
inoperative
and
unenforceable as a matter of law;

d. NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion coverage violate the Free Speech
provisions contained in Article 1, Section 8
of the New York Constitution and are,
accordingly, inoperative and unenforceable
as a matter of law;
e.

NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion coverage violate the Expressive
Association and Associational provisions
contained in the New York Constitution
and are, accordingly, inoperative and
unenforceable as a matter of law;

135a
f.

NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
undisclosed Abortion Mandates requiring
abortion coverage violate the separation of
powers doctrine and rulemaking provision
of Articles III, § I, IV, § 8 of the New York
State Constitution.

g. NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion coverage violate the protection
contained in the Human Rights Law
(Executive Law, Section 296(11)) and are,
accordingly, inoperative and unenforceable
as a matter of law;
h. NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion coverage violate the safeguards
contained in the Religious Corporations
Law (N.Y. Relig. Corp. Law §§26,5
(McKinney 1990)) and are, accordingly,
inoperative and unenforceable as a matter
of law;
i.

NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion
coverage
violate
the
Establishment Clause of the First
Amendment of the United States
Constitution,
and
are,
accordingly
inoperative and unenforceable as a matter
of law;

136a
j.

NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion coverage violate the Free Exercise
Clause of the First Amendment of the
United States Constitution and are,
accordingly, inoperative and unenforceable
as a matter of law;

k. NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion coverage violate the Free Speech
and Association Liberty provisions of the
First Amendment to the United States
Constitution
and
are,
accordingly,
inoperative and unenforceable as a matter
of law;
l.

NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion coverage violate the Equal
Protection Clause of the Fourteenth
Amendment of the United States
Constitution
and
are,
accordingly,
inoperative and unenforceable as a matter
of law;

m. NYSDFS Regulatory Abortion Mandates,
Model Language, Section IX [M] and the
Undisclosed Abortion Mandates requiring
abortion coverage violate Plaintiffs’
“hybrid rights” claims arising from:
i.

(1) Free Exercise Clause with Free
Speech; (2) Free Exercise Clause with

137a
Expressive
Association
and
Associational Rights; (3) Free Exercise
Clause with the Equal Protection
Clause; (4) Free Exercise Clause with
the Establishment Clause;
ii. (5) Free Speech with Expressive
Association and Associational Rights;
(6) Free Speech with Equal Protection
Clause; (7) Free Speech with the
Establishment Clause;
iii. (8) Expressive Association and
Associational Rights with the Equal
Protection Clause; (9) Expressive
Association and Associational Rights
with the Establishment Clause; and
iv. (10) the Equal Protection Clause with
the Establishment Clause.
n. All of the aforementioned hybrid claims
demonstrate the NYSDFS Regulatory
Abortion Mandates, Model Language and
Undisclosed Abortion Mandates violate
Plaintiffs’ “hybrid rights” and are,
accordingly, inoperative and unenforceable
as a matter of law.
2. That
Defendants
Maria
T.
Vullo,
Superintendent, New York State Department of
Financial Services be preliminarily and permanently
enjoined as follows:
That neither Defendant Maria T. Vullo,
Superintendent, New York State Department of
Financial Services, nor any other agency of the
State of New York or the United States issue any
“directives” to Plaintiffs or others similarly

138a
situated, or institute any administrative or
judicial actions seeking enforcement of the
subject NYSDFS Regulatory Abortion Mandates
and that the NYSDFS be directed to provide
Plaintiffs with exemptions from funding and
providing abortion coverage in Plaintiffs’ health
insurance benefits plans and contracts.
3. That this Court grant Plaintiffs such other and
further relief as to this Court may be deemed just,
proper and equitable.
DATED:
November 21, 2017

Respectfully submitted,
TOBIN AND DEMPF, LLP
s/ Michael L. Costello
Michael L. Costello
Attorneys for Plaintiffs
Office and Post Office
Address:
515 Broadway
Albany, NY 12207
(518) 463-1177
mcostello@tdlaws.com

139a
VERIFICATION
STATE OF NEW YORK
COUNTY OF ALBANY

)
)ss.:
)

Edward B. Scharfenberger, being duly sworn,
deposes and says: that he is the Bishop of The Roman
Catholic Diocese of Albany, New York and chair of the
Board of Directors of Catholic Charities of the Diocese
of Albany plaintiffs in the above-captioned complaint.
I have read the foregoing Complaint for Declaratory
and Injunctive Relief and know its contents. The
Complaint is true to the best of my knowledge, except
as to any matters alleged on information and belief,
and as to those matters, I believe them to be true.
s/ Edward B. Scharfenberger
Edward B. Scharfenberger
Sworn to before me this
21st day of December, 2017
s/ Virginia M. Daley
Notary Public

Virginia M. Daley
NOTARY PUBLIC STATE OF NEW YORK
ALBANY COUNTY
[Illegible] #01DA6063124
COMM. EXP. 8/27/2021

140a

APPENDIX L
NEW YORK STATE
DEPARTMENT OF FINANCIAL SERVICES
FORTY-EIGHTH AMENDMENT TO
11 NYCRR 52
(INSURANCE REGULATION 62)
MINIMUM STANDARDS FOR FORM,
CONTENT AND SALE OF HEALTH
INSURANCE, INCLUDING STANDARDS OF
FULL AND FAIR DISCLOSURE
I, Maria T. Vullo, Superintendent of Financial
Services, pursuant to the authority granted by
Sections 202 and 302 of the Financial Services Law
and Sections 301, 3201, 3217, 3221, 4235, 4237, and
4303 of the Insurance Law, do hereby promulgate the
Forty-Eighth Amendment to Part 52 of Title 11 of the
Official Compilation of Codes, Rules and Regulations
of the State of New York (Insurance Regulation 62), to
take effect 60 days after publication of the Notice of
Adoption in the State Register and to apply to all
policies and contracts issued, renewed, modified or
amended after that date, to read as follows:
(ALL MATERIAL IS NEW)
Subdivision 52.1(p) is added as follows:
(p)(1) Subject to certain limited exceptions,
Insurance Law section 3217 and regulations
promulgated thereunder (section 52.16(c) of this Part)
have long prohibited health insurance policies from
limiting or excluding coverage based on type of illness,
accident, treatment or medical condition. None of the

141a
exceptions apply to medically necessary abortions. As
a result, insurance policies that provide hospital,
surgical, or medical expense coverage are required to
include coverage for abortions that are medically
necessary.
(2) Section 52.16(o) of this Part makes explicit that
group and blanket insurance policies that provide
hospital, surgical, or medical expense coverage
delivered or issued for delivery in this State shall not
exclude coverage for medically necessary abortions.
Section 52.16(o) of this Part also provides for an
optional, limited exemption for religious employers as
provided in that section while ensuring that coverage
is maintained for any insured seeking a medically
necessary abortion.
Subdivision 52.2(y) is added as follows:
(y) Religious employer means an entity for which
each of the following is true:
(1) The inculcation of religious values is the
purpose of the entity.
(2) The entity primarily employs persons who
share the religious tenets of the entity.
(3) The entity serves primarily persons who share
the religious tenets of the entity.
(4) The entity is a nonprofit organization as
described in Section 6033(a)(2)(A)i or iii, of the
Internal Revenue Code of 1986, as amended.
Subdivision 52.16(o) is added as follows:
(o)(1) No policy delivered or issued for delivery in
this State that provides hospital, surgical, or medical
expense coverage shall limit or exclude coverage for
abortions that are medically necessary. Coverage for

142a
in-network abortions that are medically necessary
shall not be subject to copayments, or coinsurance, or
annual deductibles, unless the policy is a high
deductible health plan as defined in section 223(c)(2)
of the Internal Revenue Code in which case coverage
for medically necessary abortions may be subject to
the plan’s annual deductible.
(2) Notwithstanding any other provision of this
Part, a group or blanket policy that provides hospital,
surgical, or medical expense coverage delivered or
issued for delivery in this State to a religious employer
may exclude coverage for medically necessary
abortions only if the insurer:
(i) obtains an annual certification from the group
or blanket policyholder or contract holder that the
policyholder or contract holder is a religious
employer and that the religious employer requests
a contract without coverage for medically necessary
abortions;
(ii) issues a rider to each certificate holder (i.e.,
primary insured) at no premium to be charged to the
certificate holder (i.e., primary insured) or religious
employer for the rider, that provides coverage for
medically necessary abortions subject to the same
rules as would have been applied to the same
category of treatment in the policy issued to the
religious employer. The rider must clearly and
conspicuously specify that the religious employer
does not administer medically necessary abortion
benefits, but that the insurer is issuing a rider for
coverage of medically necessary abortions, and shall
provide the insurer’s contact information for
questions; and

143a
(iii) provides notice of the issuance of the policy
and rider to the superintendent in a form and
manner acceptable to the superintendent.

144a
NEW YORK STATE
DEPARTMENT of
FINANCIAL SERVICES
Andrew M. Cuomo
Governor

Maria T. Vullo
Superintendent

I, Maria T. Vullo, Superintendent of Financial
Services, do hereby certify that the foregoing is the
Forty-Eighth Amendment to Part 52 of Title 11 of the
Official Compilation of Codes, Rules and Regulations
of the State of New York (Insurance Regulation 62)
signed by me on May 10, 2017 pursuant to the
authority granted by Sections 202 and 302 of the
Financial Services Law and Sections 301, 3201, 3217,
3221, 4235, 4237, and 4303 of the Insurance Law, to
take effect 60 days after publication in the State
Register.
Pursuant to the provisions of the State
Administrative Procedure Act, prior notice of the
proposed rule was published in the State Register on
February 8, 2017. No other publication or prior notice
is required by statute.
s/ Maria T. Vullo
Maria T. Vullo
Superintendent of Financial Services
Date: June 5, 2017

ONE STATE STEET, NEW YORK, NY 10004 |
WWW.DFS.NY.GOV

145a

APPENDIX M
Assessment of Public Comments for the Forty Eighth
Amendment to 11 NYCRR 52 (Insurance Regulation
62).
The
Department
of
Financial
Services
(“Department”) received comments from two hundred
and sixty nine interested persons in response to its
proposed amendment to Insurance Regulation 62,
some of which were incorporated into the rulemaking,
discussed below.
Comment:
The vast majority of commenters requested that the
Department limit the proposed exemption for religious
employers and qualified religious organization
employers contained in proposed subdivision 52.1(p),
on the ground that such a broad exemption is not
required by law. Most requested that the Department
utilize only the religious employer exemption
contained in the Women’s Health and Wellness Act
(“WHWA”).
Some commenters called for the
elimination of any exemption for any religious
employers, asserting that New York law does not
require an exemption. One commenter asserted that
the religious exemption did not go far enough and
should be strengthened.
Response:
In response to the hundreds of comments related to
the exemption for religious employers, the
Department has decided to modify the proposed
amendment to reflect an approach offered by a

146a
majority of commenters and which balances the
substantial interest of the state in providing
meaningful access to health care services, the
interests of religious employers, and the constitutional
rights of women. The Department has directly
incorporated the religious employer exemption from
the WHWA and has removed any additional
exemptions.
Neither State nor Federal law requires the
Department to offer an exemption from this neutral
regulation of general applicability.
However,
recognizing that the legislature saw fit, in enacting the
WHWA, to provide a limited exemption for houses of
worship and similar entities in the sphere of
reproductive care and that this regulation
nevertheless provides all insured women with access
to contraceptive care, the Department has concluded
that utilizing the same exemption in the context of
abortion coverage is appropriate and provides
adequate protection of both the rights of women and
religious employers in New York.
While individuals and organizations have recently
invoked the federal Religious Freedom Restoration Act
(“RFRA”) to assert religious objection to federal
regulations of general applicability, most notably in
the United States Supreme Court case of Burwell v.
Hobby Lobby Stores, Inc., the RFRA does not apply to
state law or regulation.
The Department has
determined that the interests of ensuring access to
reproductive care, fostering equality between the
sexes, providing women with better health care, and
the disproportionate impact of a lack of access to
reproductive health services on women in low income
families weighs far more heavily than the interest of

147a
business corporations to assert religious beliefs in the
provision of health insurance to their employees. This
is especially true in that these businesses are making
decisions about health insurance coverage for their
employees, where employees have little to no power in
guiding the decision and are not required to agree with
the employer’s religious beliefs.
Accordingly, the Department has maintained the
religious employer exemption modeled after the
WHWA but has eliminated the added exemption for
other groups that was contained in the proposed
regulation, but not in WHWA or otherwise found in
New York law. This change is consistent with the
requests of over two hundred commenters.
Comment:
One commenter requested that the Department
eliminate the requirement that religious employers
certify that they have religious objection to medically
necessary abortions to receive the exemption. The
commenter suggests that this requirement goes
beyond the WHWA’s requirement for an exemption
from contraceptive coverage, where a religious
employer need only request a policy without coverage.
Response:
The Department has made the suggested change as
it achieves the Department’s purpose of aligning the
religious employer exemption under the proposed
amendment with the WHWA exemption, in order to
align coverage for medically necessary abortion
services consistent with other reproductive health
coverage in New York.

148a
Comment:
Two commenters requested the Department to add
language that indicates that the medical necessity
determination is one which is solely within the
discretion of the insured’s physician.
Response:
Medical necessity determinations are regularly
made in the normal course of insurance business by a
patient’s health care provider in consultation with the
patient, subject to the utilization review and external
appeal procedures in Article 49 of the Insurance Law
and Article 49 of the Public Health Law. The
Department has therefore clarified the proposed
amendment to incorporate this standard and to also
explicitly state that determinations of medical
necessity cannot be made or impacted by any other
individual including, without limitation, a patient’s
employer or the group policyholder or contract holder
covering the patient.
Comment:
In a number of different contexts a few commenters
asserted concerns over the proposed rider system for
insureds whose employer qualifies for an exemption.
These commenters suggested that the rider system
does not adequately protect access to reproductive
care.
Response:
With the changes made to the religious employer
exemption the Department believes that the rider
system will be utilized sparingly. Given that the rider
must be provided at no cost to the insured and that the
insured automatically receives the rider, the

149a
Department believes that the rider system as
contained in the proposed amendment provides
adequate protection of medically necessary abortion
coverage while balancing the concerns of certain
religious employers with an objection to providing
medically necessary abortion coverage.
The
Department notes that a similar system, applicable to
the same religious employers, works in the context of
contraception. Therefore, the Department did not
adopt any changes to the mechanics of the rider
system in the rulemaking. The Department will
utilize its full authority to ensure that woman have the
insurance coverage required by law.
Comment:
One commenter requested that the Department
delay the publication of the final regulation until
November to align the effective date with the
beginning of the calendar year. The commenter
suggested that this would allow plans time to
operationalize the regulation’s requirements.
Response:
Existing policies must already include coverage for
medically necessary abortions, and the new rules
included in the proposed regulation will not impair
existing policies or contracts. The Department has
provided clarifying language in the rulemaking that
further explains the amendment does not impair
contracts in force and applies to policies and contracts
issued, renewed, modified or amended after the
effective date of the amendment.
Comment:
A limited number of commenters suggested that the
proposed regulation exceeds the Department’s

150a
authority.
One commenter suggested that the
Department lacked authority to promulgate this
regulation at all.
The commenter argued that
Insurance Law Section 3217 limits the Department’s
ability to regulate as to minimum standards of health
insurance policies to the five enumerated purposes set
forth in subsection (b) of that statute. The commenter
goes on to argue that Health Insurance Association of
America v. Corcoran is directly on point to the
Department’s regulatory authority under Section 3217
and precludes this regulation.
One additional
commenter suggested that the requirement that
medically necessary abortions be covered at no cost
exceeds the Department’s authority.
Response:
The State Administrative Procedures Act does not
require the Department to respond to conclusory legal
arguments in the context of an Assessment of Public
Comment. Nonetheless, construing these challenges
to the Department’s authority as a suggested
alternative to the proposed amendment, namely that
the Department do nothing, the Department rejects
the suggestion.
The Department has determined that it is necessary
that this amendment be made to protect consumers of
health insurance products.
Medically necessary
abortion coverage is already required under the
Insurance Law through regulations requiring
coverage of all medically necessary surgeries, doctor
visits, and prescriptions. To avoid consumer confusion
and to provide clarity surrounding this coverage, the
Department, in response to concerns observed in the
markets that inconsistent plan application of the

151a
coverage for medically necessary abortions was
leading to improper coverage exclusion and consumer
misunderstanding, has proposed this necessary
amendment to Regulation 62, which will provide
clarity and simplification surrounding the coverage,
and will align it more uniformly with other coverage
for reproductive care in New York. The Department
has authority to prescribe regulations and in doing so
may interpret statutes: the amendment is entirely
consistent with Section 3217 and with the public policy
of ensuring and advancing women’s full access to
health care services, in particular reproductive care,
which the Legislature has consistently set forth in the
Insurance Law.
Indeed the elimination of cost sharing for medically
necessary abortions and the religious employer
exemption are taken directly from aspects of the
Insurance Law where the Legislature signaled New
York public policy of providing and advancing
comprehensive reproductive and family planning
coverage for women without cost sharing.
The
Department has the authority to promulgate this
amendment, and has determined that this
amendment is necessary to implement New York’s
policy and law supporting women’s full access to
health care services.
Comment:
One insurer commenter asked for clarification as to
whether the rider required by this amendment could
be bundled with other religious riders found in the
group markets.

152a
Response:
Given the important differences between this rider
and other coverage riders, the Department has
determined that a rider issued pursuant to an
authorized exemption contained in the amendment
may not be combined with other religious riders.
Importantly, the rider for medically necessary
abortion coverage must be provided at no charge to the
insured and must be provided immediately. To
combine the rider for medically necessary abortion
coverage with other riders, such as a rider under the
contraceptive mandate of the WHWA, which need only
be offered, not provided, and must be paid for by the
employee, presents too much potential for consumer
confusion and insurer abuse.
Comment:
One insurer commenter requested that the
Department modify the proposed amendment to allow
all riders offered under the religious employer
exemption to be uniform. Specifically, the commenter
suggested that all riders provide medically necessary
abortion services at no cost sharing, even plans that
are HSA-eligible. The commenter suggests that
without this change there will be a substantial
administrative burden with a large number of
different riders being required.
Response:
Given the changes to the religious employer
exemption contained in the rulemaking, the
Department does not share the concern that there will
be a substantial administrative burden. As with the
WHWA exemption, the burden on insurers to facilitate
the limited rider system will be minimal. As the

153a
revisions contained in the rulemaking reduce the
likelihood of varying riders, the Department did not
adopt the commenter’s suggested modification to the
rulemaking.
Comment:
One commenter sought clarification from the
Department whether an insurer has the discretion to
permit the religious employer to use the exemption.
The commenter drew from the language of the
proposed amendment to suggest that the religious
employer would request the exemption and the
insurer has the discretion whether or not to grant it.
Response:
The discretion to avail themselves of the religious
employer exemption rests with the religious employer,
provided that the religious employer meets all
requirements of the exemption. An insurer who is
otherwise permitted to decline to write a policy may
decline to write a policy that excludes coverage for
medically necessary abortions, but does not have
discretion whether or not to grant an exemption under
the amendment if the requirements are met. The
Department has determined that no further clarifying
changes to the proposed amendment are necessary.

154a

APPENDIX N
Regulatory Impact Statement for the Forty-Eighth
Amendment to 11 NYCRR 52 (Insurance Regulation
62).
1. Statutory authority: Financial Services Law
(“FSL”) Sections 202 and 302 and Insurance Law
(“IL”) Sections 301, 3201, 3217, 3221, 4235, 4237, and
4303.
FSL Section 202 establishes the office of the
Superintendent
of
Financial
Services
(“Superintendent”). FSL Section 302 and IL Section
301, in pertinent part, authorize the Superintendent
to prescribe regulations interpreting the IL and to
effectuate any power granted to the Superintendent in
the IL, FSL, or any other law.
IL Section 3201 subjects policy forms to the
Superintendent’s approval.
IL Section 3217 authorizes the Superintendent to
issue regulations to establish minimum standards,
including standards for full and fair disclosure, for the
form, content and sale of accident and health
insurance policies and subscriber contracts of
corporations organized under IL Article 32 and Article
43, and Public Health Law Article 44.
IL Section 3221 prohibits a policy of group or
blanket accident and health insurance, except as
provided in IL Section 3221(d), to be delivered or
issued for delivery in New York unless it contains in
substance the provisions set forth therein or
provisions that are in the opinion of the

155a
Superintendent more favorable to the holders of such
certificates or not less favorable to the holders of such
certificates and more favorable to policyholders.
IL Section 4235 defines a group accident insurance
policy, group health insurance policy, and group
accident and health insurance policy.
IL Section 4237 defines a blanket accident
insurance policy, blanket health insurance policy, and
blanket accident and health insurance policy.
IL Section 4303 sets forth the benefits that every
contract issued by a hospital service corporation or
health service coverage must provide.
2. Legislative objectives: IL Section 3217
authorizes the Superintendent to issue regulations to
establish minimum standards, including standards for
full and fair disclosure, for the form, content and sale
of accident and health insurance policies and
subscriber contracts of corporations organized under
IL Article 32 and Article 43, and Public Health Law
Article 44. 11 NYCRR 52 (Insurance Regulation 62)
was promulgated pursuant to this Section, and Section
52.16(c) of Regulation 62 prohibits a policy or contract
from limiting or excluding coverage by type of illness,
accident, treatment, or medical condition, except in
certain limited circumstances.
This amendment accords with the public policy
objectives that the Legislature sought to advance in IL
Section 3217 by making explicit that individual, group
and blanket accident insurance policies and contracts
that provide hospital, surgical, or medical expense
coverage delivered or issued for delivery in New York
may not exclude coverage for medically necessary
abortions and must provide such coverage at no cost

156a
sharing.
The amendment also provides for an
optional, limited exemption for religious employers
while ensuring that medically necessary abortion
coverage is maintained for any insured of a policy
issued to a religious employer at no additional cost to
the insured.
3. Needs and benefits: Section 52.16(c) of
Regulation 62 already prohibits a policy or contract
from limiting or excluding coverage by type of illness,
accident, treatment, or medical condition, except in
certain limited circumstances. None of the exceptions
apply to medically necessary abortions. As a result,
insurance policies and contracts that provide hospital,
surgical, or medical expense coverage must include
coverage for medically necessary abortions. This
amendment makes explicit that individual, group and
blanket accident insurance policies and contracts that
provide hospital, surgical, or medical expense coverage
delivered or issued for delivery in New York may not
exclude coverage for medically necessary abortions
and must provide such coverage at no cost sharing.
In addition, the amendment provides for an optional,
limited exemption for religious employers. However,
the amendment still ensures that medically necessary
abortion coverage is maintained for any insured of a
policy issued to a religious employer at no additional
cost to the insured by requiring an insurer to issue a
rider to each certificate holder of a policy issued to the
religious employer that provides coverage for
medically necessary abortions, at no premium to be
charged to the certificate holder or religious employer.
4. Costs: Since insurers already are required to
provide coverage for medical necessary abortions,

157a
insurers should not need to incur costs to file new
policy or contract forms with the Superintendent.
Insurers may incur costs to obtain annual
certifications from religious employers that wish to
exclude coverage for medically necessary abortions
and to issue riders to each certificate holder at no
premium to be charged to the certificate holder or
religious employer under policies and contracts issued
to such religious employers.
However, these
additional costs should be minimal.
This amendment is unlikely to impose compliance
costs on the Department of Financial Services
(“Department”). Any costs to the Department should
be minimal and the Department expects to absorb the
costs in its ordinary budget.
This amendment will not impose compliance costs
on state or local governments.
5. Local government mandates: This regulation
does impose a new mandate on any county, city, town,
village, school district, fire district or other special
district.
6. Paperwork: Insurers may need to obtain annual
certifications from religious employers that wish to
exclude coverage for medically necessary abortions
and issue riders that provide coverage for medically
necessary abortions at no additional premium to each
certificate holder of a policy issued to such a religious
employer.
7. Duplication: This amendment does not
duplicate, overlap, or conflict with any existing state
or federal rules or other legal requirements.
8. Alternatives: The Department considered
adding an exemption for “qualified religious

158a
organization employer” but decided to use the current
exemption because it is more analogous to existing
state law.
9. Federal standards: The regulation does not
exceed any minimum standards of the federal
government for the same or similar subject areas.
10. Compliance schedule: The regulation will take
effect 60 days after publication of the Notice of
Adoption in the State Register.

159a

APPENDIX O

N.Y. Comp. Codes R. & Regs. tit. 11, § 52.1
Preamble
***
(p)
(1) Subject to certain limited exceptions,
Insurance Law section 3217 and regulations
promulgated thereunder (section 52.16(c) of this
Part) have long prohibited health insurance policies
from limiting or excluding coverage based on type of
illness, accident, treatment or medical condition.
None of the exceptions apply to medically necessary
abortions. As a result, insurance policies that
provide hospital, surgical, or medical expense
coverage are required to include coverage for
abortions that are medically necessary.
(2) Section 52.16(o) of this Part makes explicit that
group and blanket insurance policies that provide
hospital, surgical, or medical expense coverage
delivered or issued for delivery in this State shall
not exclude coverage for medically necessary
abortions. Section 52.16(o) of this Part also provides
for an optional, limited exemption for religious
employers as provided in that section while
ensuring that coverage is maintained for any
insured seeking a medically necessary abortion.
***

160a
N.Y. Comp. Codes R. & Regs. tit. 11, § 52.2
Definitions
***
(y) Religious employer means an entity for which
each of the following is true:
(1) The inculcation of religious values is the
purpose of the entity.
(2) The entity primarily employs persons who
share the religious tenets of the entity.
(3) The entity serves primarily persons who share
the religious tenets of the entity.
(4) The entity is a nonprofit organization as
described in section 6033(a)(2)(A)i or iii, of the
Internal Revenue Code of 1986, as amended.
***

161a
N.Y. Comp. Codes R. & Regs. tit. 11, § 52.16
Prohibited provisions and coverages
***
(o)
(1) No policy delivered or issued for delivery in this
State that provides hospital, surgical, or medical
expense coverage shall limit or exclude coverage for
abortions that are medically necessary. Coverage
for in-network abortions that are medically
necessary shall not be subject to copayments, or
coinsurance, or annual deductibles, unless the
policy is a high deductible health plan as defined in
section 223(c)(2) of the Internal Revenue Code in
which case coverage for medically necessary
abortions may be subject to the plan’s annual
deductible.
(2) Notwithstanding any other provision of this
Part, a group or blanket policy that provides
hospital, surgical, or medical expense coverage
delivered or issued for delivery in this State to a
religious employer may exclude coverage for
medically necessary abortions only if the insurer:
(i) obtains an annual certification from the
group or blanket policyholder or contract holder
that the policyholder or contract holder is a
religious employer and that the religious
employer requests a contract without coverage for
medically necessary abortions;
(ii) issues a rider to each certificate holder (i.e.,
primary insured) at no premium to be charged to
the certificate holder (i.e., primary insured) or
religious employer for the rider, that provides
coverage for medically necessary abortions

162a
subject to the same rules as would have been
applied to the same category of treatment in the
policy issued to the religious employer. The rider
must clearly and conspicuously specify that the
religious employer does not administer medically
necessary abortion benefits, but that the insurer
is issuing a rider for coverage of medically
necessary abortions, and shall provide the
insurer’s contact information for questions; and
(iii) provides notice of the issuance of the policy
and rider to the superintendent in a form and
manner acceptable to the superintendent.
***

